Executive Summary
Evaluation of the Voting Assistance Program
Who should read this report? DoD civilian and military personnel who are responsible for the
administration, oversight, and implementation of the Federal Voting Assistance Program and the
Military Services’ voting assistance programs should read this report.

Methodology. We used statistical data collected via web-based survey and installation visits to
assess the Federal Voting Assistance Program (FVAP). Analysis of the data is intended to capture
indications of broad trends in the areas assessed. We reviewed the results and established a
method for assigning levels of effectiveness and compliance based on statistical criteria. See
Appendix A for a detailed discussion of scope and methodology.

Results. Overall the Services are compliant. Survey responses suggest there are opportunities to
improve program effectiveness with enhanced methods for delivering training, information, and
materials to absentee voters.

The Under Secretary of Defense for Personnel and Readiness (USD P&R) and the Military
Services have implemented a voting assistance program and established detailed policy and
guidance. USD P&R and the Services have made resources, voter information, and materials
readily available to uniformed absentee voters and dependents. However, our survey results and
installation visits indicate that large percentages of those surveyed do not get essential training,
information, and materials. Furthermore, the FVAP leadership does not get meaningful, timely
feedback that would help them take effective corrective action in deficient areas.

Observations:
1. Oversight: Management of the FVAP would benefit from an accurate, embedded, and
consistent measurement effort. (See Recommendation 1.a.)

2. Training of Voting Assistance Officer (VAO): VAOs are not trained on all program
objectives. Training does not include “Good Ideas” or “Best Practices.” (See Recommendation
1.b.)

3. Automated Delivery and Reporting Infrastructure: To compensate for the fact that voting
assistance will always be a secondary duty, senior leadership can expect significant improvement
only if a radically different approach is applied. (See Recommendation 1.c.)

4. Change to Public Law: If the FVAP leadership modifies the current monitoring process to
improve program performance, a legislative change to Public Law 107-107 may be justified to
reduce IG oversight requirements. (See Recommendation 1.d.)

5. Gaps in Policy: While the Services’ policies adequately cover assistance for uniformed
absentee voters, three of the Services’ policies are silent on assisting one or more of the other
populations (i.e., dependents, dispersed personnel, deployed personnel, tenant organizations)
directed by the DoD Directive 1000.4, “Federal Voting Assistance Program,” April 14, 2004. The
Marine Corps alone addressed all populations outlined in the directive. (See Recommendation 2.)



                                                   i
Recommendations. We recommend:
       1. The Under Secretary of Defense for Personnel and Readiness:
              a. Revise DoD Directive 1000.4, “Federal Voting Assistance Program,” June 3,
              2002, to require the Federal Voting Assistance Program Office and Military
              Services collect and analyze metrics on a more frequent basis, as a means of
              identifying areas of concern in accomplishing program objectives. See Appendix
              F, “Recommended FVAP Metrics.”
              b. Revise DoD Directive 1000.4 to:
                  •   Require Voting Assistance Officer training include all program objectives
                      outlined in DoD Directive 1000.4.
                  •   Require Voting Assistance Officer training include appropriate good ideas
                      and best practices as tools for accomplishing objectives.
                  •   Require Voting Assistance Officer complete Federal Voting Assistance
                      Program training within 60 days of appointment.

              c. Develop an automated delivery and reporting system.
              d. Develop and forward a legislative change proposal to Congress that would
              reduce or eliminate oversight requirements by Services’ and DoD IGs,
              commensurate with the success of process improvements and automated reporting
              procedures.
       2. The Secretaries of the Army, Navy, and Air Force revise all Voting Assistance Program
       instructions to include policy to support all eligible personnel as directed by DoD Directive
       1000.4.

Management Comments. We received comments from the Under Secretary of Defense for
Personnel and Readiness, Chief of Staff, U.S. Army, Chief of Staff, U.S. Air Force, and the
Commandant of the Marine Corps. Chief of Naval Operations did not provide comments in time
for this report. See Appendix N for detailed management comments.

   •   The Under Secretary of Defense for Personnel and Readiness partially or fully concurred
       with Recommendations 1a, b, c, and d. Recommendation 2 is not applicable the Office of
       the Under Secretary. USD (P&R) did not consider the survey methodology, as prescribed
       by statute, appropriate to judge the effectiveness of the program.

   •   The Chief of Staff, U.S. Army, did not comment on Recommendations 1a, b, c, and d. The
       Chief of Staff stated that the Army has revised their regulation to address Recommendation
       2.

   •   The Chief of Staff, U.S. Air Force, concurred with all recommendations except 1.d. The
       Chief of Staff did not consider the survey methodology, as prescribed by statute,
       appropriate to judge the effectiveness of the program.

   •   The Commandant of the Marine Corps commented that a web-based system will be
       implemented in CY 2005 to monitor the Voting Assistance Program. None of the
       recommendations applied to the Marine Corps.




                                                 ii
                                   Table of Contents

Executive Summary                                                     i
Chapter 1: Background, Policies, Objectives, and Methodology          1
Chapter 2: Assessment of Military Services’ Compliance                5
Chapter 3: Assessment of Voting Assistance Program Effectiveness     17
Chapter 4: Conclusion, Observations, and Recommendations             21


List of Figures
Figure 1 Voting Assistance Program Elements                           3
Figure 2 Statistical Assessment Criteria                              4
Figure 3 Services’ Compliance Levels                                  5
Figure 4 Army Compliance Levels                                       7
Figure 5 Navy Compliance Levels                                       9
Figure 6 Air Force Compliance Level                                  11
Figure 7 Marine Corps Compliance Levels                              13
Figure 8 Program Effectiveness Levels                                18
Figure 9 Statistical Assessment Criteria                             32
Figure 10 Notional Metrics Chart                                     50


List of Appendixes

Appendix A   Scope and Methodology                                   31
Appendix B   Related Reports                                         35
Appendix C   Compliance and Effectiveness Statistical Data Tables    37
Appendix D   Uniformed Absentee Voters Questionnaire                 41
Appendix E    Good Ideas                                             47
Appendix F    Proposed Metrics                                       49
Appendix G   Installations Visited                                   51
Appendix H   Department of the Army Inspector General Report         53
Appendix I    Department of the Navy Inspector General Report        59
Appendix J    Department of the Air Force Inspector General Report   67
Appendix K   Marine Corps Inspector General Report                   75
Appendix L    Acronym List                                           87
Appendix M    Report Distribution                                    89
Appendix N    Management Comments                                    91




                                              iii
This page left intentionally blank




                iv
     Chapter 1: Background, Policies, Objectives and Methodology

  Background

Annual assessment of the Voting Assistance Program is required by Title VXI, “Uniformed
Services Voting,” Section 1566, Chapter 80 of Title 10, United States Code (10 U.S.C. 1566), and
directs the following:

       (1) “The Inspector General of each of the Army, Navy, Air Force, and Marine Corps shall conduct
               a.   An annual review of the effectiveness of the voting assistance program; and
               b.   An annual review of the compliance with voting assistance programs of that armed
                    force.
       (2) “Upon the completion of each annual review under paragraph (1), each Inspector General shall
           submit to the Inspector General of the Department of Defense a report on the results of each
           such review. Such report shall be submitted in time each year to be reflected in the annual
           report of the Inspector General of the Department of Defense under paragraph (3).
       (3) “Not later than March 31 each year, the Inspector General of the Department of Defense shall
           submit to Congress a report on;
               a.   The effectiveness during the preceding calendar year of voting assistance programs;
                    and
               b.   The level of compliance during the preceding calendar year with voting assistance
                    programs of each of the Army, Navy, Air Force, and Marine Corps.
       (4) “The Inspector General of the Department of Defense shall periodically conduct at Department
           of Defense installations unannounced assessments of compliance with:
               a.   The requirements of the Uniformed and Oversea Citizen Absentee Voting Act;

               b.   Department of Defense regulations regarding that Act and the Federal Voting
                    Assistance Program carried out under that Act; and

               c.   Other requirements of law regarding voting by members of the armed forces.

       (5) “The Inspector General assessment shall conduct an assessment at not less than 10
           Department of Defense installations each calendar year.

       (6) “Each assessment shall include a review of such compliance

               a.   Within units to which are assigned, in aggregate, not less than 20 percent of the
                    personnel assigned to duty at that installation;

               b.   Within a representative survey of members of the armed forces assigned to that
                    installation and dependents; and

               c.   Within unit voting assistance officers to measure program effectiveness.”

       Federal Voting Assistance Program (FVAP). Under Section 101 of the Uniformed and
       Overseas Citizens Absentee Voting Act (the Act), the President designates the head of an


                                                        1
executive department to have primary responsibilities for the Federal function. On June 8,
1988, the President issued Executive Order 12642, “Designation of the Secretary of
Defense as the Presidential Designee.”

DoD Directive 1000.4, “Federal Voting Assistance Program,” April 14, 2004, assigns the
Under Secretary of Defense for Personnel and Readiness (USD [P&R]) the responsibility
for administering FVAP for the Presidential designee, the Secretary of Defense.
Subsequently, USD (P&R) established an FVAP Office to manage the program.

Federal Voting Assistance Program Office. The FVAP Office provides assistance and
voting information to the Military Services and absentee voters. The most notable services
include: (1) Voting Assistance Officer (VAO) Training (on-site and web-based); (2) Voting
Assistance Guide with state-by-state information; (3) Monthly Newsletter that contains
timely information on upcoming elections and a “to do” list for Unit VAOs; and (4) FVAP
Website (http://www.fvap.gov) that provides voting assistance and information to
uniformed absentee voters and eligible dependents.



DoD and Military Services’ Policies
DoD Directive. DoD Directive 1000.4, “Federal Voting Assistance Program,” April 14,
2004, tasks FVAP to ensure that eligible voters receive information about voting
registration, procedures and materials pertaining to scheduled elections, including
information on dates, offices, constitutional amendments, and other ballot proposals. DoD
Directive 1000.4 provides specific guidance to the heads of DoD Components and
Uniformed Services regarding implementation and management of the voting assistance
program.

Army Regulation. Army Regulation 608-20, “Voting by Personnel of the Armed Forces,”
August 15, 1981, establishes policy, responsibilities, and procedures for Army
implementation of the FVAP. The regulation establishes and assigns specific
responsibilities to the Adjutant General, commanders of major Army commands,
installation commanders, and unit commanders down to company and detachment levels.

Navy Instruction. Office of the Chief of Naval Operations Instruction 1742.1, “Navy
Voting Assistance Program,” August 14, 2002, establishes policy and assigns
responsibilities. The Instruction states that the Navy voting assistance program will ensure
that eligible voters receive information about registration procedures and voting materials
pertaining to scheduled elections. The Instruction assigns voting assistance responsibilities
to every level of command.

Air Force Instruction. Air Force Instruction 36-3107, “Voting Assistance Program,”
September 10, 2003, implements the Act and informs personnel about voting opportunities,
including absentee voting. The Air Force Instruction establishes specific voting assistance
responsibilities at various levels of command, from the major command down to the unit
voting counselor. The plan reiterates specific responsibilities for Air Force headquarters,
commanders of major commands and installations, installation personnel directors, and
Voting Assistance Officers at each level of command.

Marine Corps Order. Marine Corps Order 1742.1A (Change 1), “Voter Registration
Program,” May 14, 2002, provides guidance and assigns responsibility for the
implementation of the Marines Corps voter registration program to commanding officers at


                                          2
       all echelons to assist Marines, their family members, and certain others in exercising their
       right to vote.


 Military Services Voting Assistance Program

Figure 1 illustrates the major elements of the Military Services Voting Assistance Program. The
Voting Assistance Officer (VAO) is the key to ensuring that uniformed absentee voters and
eligible dependents receive voting information and materials.




                   Figure 1: Voting Assistance Program Elements




                                                 3
Evaluation Objectives

    The evaluation has two primary objectives:

        •   To provide an assessment of the Military Services’ compliance with existing guidance.

        •   To provide an assessment of the effectiveness of the DoD Voting Assistance Program.


Assessment Methodology

    To accomplish the evaluation objectives, the DoD Inspector general (IG) assessment team
    established a set of assessment criteria (see Figure 2, Statistical Assessment Criteria). The criteria
    apply levels of compliance and effectiveness based on the statistical analysis of the responses from
    the survey questionnaire and the interviews conducted during the installation visits.




                       Figure 2: Statistical Assessment Criteria
    Source of Assessment Data and Limitations. The DoD IG assessed the Military Services’
    compliance based on the data summarized at Appendix C, “Compliance and Effectiveness
    Statistical Data Tables.” The text of the survey is presented in Appendix D, “Uniformed Absentee
    Voter Questionnaire.” The statistical sample is relatively small when compared to the total military
    population and the total number of installations. For example, the DoD IG team received 2,712
    survey responses. These responses comprise only 0.002 percent of the active duty military
    population. Similarly, the 12 installations visited (see Appendix G, “Installations Visited”)
    represent less than 0.01 percent of all DoD installations worldwide. The team interviewed 40
    voting assistance officers. Therefore, these small sample sizes and sample design preclude any
    statistical projection, and, at best, can be used to illustrate only indications and trends.

    The Services assessed their respective compliance using data from a variety of sources. See
    Appendixes H, I, J, and K for complete reports. Their assessment reports did not include use of
    statistical data. Therefore, it is not possible to make a direct comparison between the DoD IG
    assessment and the individual Service’s assessments.



                                                  4
           Chapter 2: Assessment of Military Services’ Compliance

 Overview


DoD Directive 1000.4 prescribes six major areas for compliance:

       •    Appointment of Voting Assistance Officers
       •    Information Dissemination
       •    Materials Dissemination
       •    Training
       •    Maintaining Resources
       •    Development of Written Guidance.

Using the previously described assessment methodology, Figure 3, “Services’ Compliance
Levels,” summarizes the combined level of compliance for all Services (75%) and the level of
compliance for each respective Service. See Appendix C, “Compliance and Effectiveness
Statistical Data Tables,” for details.




                         Figure 3: Services’ Compliance Levels




                                               5
This page left intentionally blank




            6
Army Voting Assistance Program Compliance

    Overall, the analysis of the data collected at three Army installations indicates that the
    Army’s program is compliant. Figure 4, “Army Compliance Levels,” depicts the breakout
    of the six areas.

           •   The four Compliant areas are: Voting Assistance Officer (VAO) Appointments;
               Information Dissemination; Material Dissemination; and Resources. However,
               the program achieved low levels of compliance in areas of Unit VAOs’ pay
               grade, Unit VAOs’ assignment in writing, and delivery of the Federal Post Card
               Application (FPCA) by January 15th.

           •   The Marginally Compliant area is Training. Four of 11 VAOs did not complete
               the required FVAP training and 3 of 11 did not provide required training on
               registration and voting to command members.

           •   The Not Compliant area is Developing Written Guidance. The Army’s voting
               assistance program instruction in effect during the evaluation was written in
               1981. The instruction did not contain policy and guidance for support of
               dependents, dispersed personnel, deployed personnel and tenant organizations,
               as required by DoD Directive 1000.4. The instruction was eventually revised
               and updated 28 October 2004. However, the revision does not contain policy
               and guidance for support of deployed personnel and tenant organizations.




                                 Figure 4: Army Compliance Levels



                                             7
Army Inspector General Report. The Army Inspector General submitted to the DoD IG their
“Assessment of the FY 2004 Army Voting Assistance Program,” on February 11, 2005. The
Army Inspector General concluded that:

             “MACOMs are in compliance with the instructions to conduct an annual assessment of the Army
             Voting Assistance Program and that the majority of the inspected units have a Voting Assistance
             Program.”

      The complete Army Inspector General Report is at Appendix H.




                                                    8
Navy Voting Assistance Program Compliance

 Overall, the analysis of the data collected at three Navy installations indicates that the Navy’s
 program is Marginally Compliant. Figure 5, “Navy Compliance Levels,” depicts the breakout
 of the six areas.
        •   The two Compliant areas are: Information Dissemination and Resources.
        •   The three Marginally Compliant areas are: VAO Appointment, VAO training, and
            Developing Written Guidance. None of the three Installation VAOs interviewed
            were of the required pay grade. Six of 10 VAOs were not assigned in writing. Fifty
            percent of the VAOs interviewed did not complete the required FVAP training.
            The Navy’s instruction does not contain policy and procedures for support of
            dispersed personnel and tenant organizations, as required by DoD Directive 1000.4.
        •   The one Not Compliant area is Materials Dissemination. Interviews with Unit
            VAOs revealed the following: (1) Four of seven did not use a tracking system for
            delivering the Federal Post Card Application (FPCA); (2) Six of seven did not
            deliver the FPCA by January 15th; and (3) Two of five did not deliver the FPCA by
            September 15th.




                                 Figure 5: Navy Compliance Levels




                                               9
Navy Inspector General Report. The Navy Inspector General submitted to the DoD IG
their “Report of Assessment of Navy Voting Assistance Program,” on January 26, 2005.
To conduct their assessment they used voting surveys, interviews with Voting Assistance
Officers, Command Assessments, Navy Voting Action Officer input, information
dissemination documentation, and personal observations. The Navy Inspector General
concluded that:

       “Overall, the Navy’s Voting Assistance Program assessment for calendar year 2004 was
       satisfactory.”

The complete Navy Inspector General Report is at Appendix I.




                                             10
Air Force Voting Assistance Program

    Overall, the analysis of the data collected at three Air Force installations indicates that the
    Air Force’s program is Compliant. Figure 6, “Air Force Compliance Levels,” depicts the
    breakout of the six areas.

           •   The Air Force program is Compliant in all areas except Development of Written
               Guidance.

           •   The service instruction does not contain policy and guidance for support of
               dependents, dispersed personnel, deployed personnel, and tenant organizations,
               as required by DoD Directive 1000.4.




                         Figure 6: Air Force Compliance Levels




                                               11
Air Force Inspector General Report. The Air Force Inspector General submitted to the
DoD IG their “USAF 2004 Voting Report,” on February 1, 2005. The Air Force Inspector
General assessed 174 voting assistance programs at the squadron, group, wing, and
command level. Evaluations were conducted as a combination of command inspections
and unit self-evaluations. The Air Force Inspector general concluded that:

       “The Air Force program is satisfactory and [the Service] is confident that permanent fixes are in
       place to address the few discrepancies noted.”

The complete Air Force Inspector General Report is at Appendix J.




                                               12
Marine Corps Voting Assistance Program Compliance
    Overall, the analysis of the data collected at three Marine Corps installations indicates that
    the Marine Corps program is Compliant. Figure 7, “Marine Corps Compliance Levels,”
    depicts the breakout of the six areas.

       •   The Marine Corps program is Compliant in five of the six areas: VAO
           Appointment, Information Dissemination, Training, Resources, and Development
           of Written Guidance. Some sub-areas received low levels of compliance, to
           include: Installation VAO Pay Grade, Assigned Unit VAOs, and VAO Completion
           of Training. None of the VAOs interviewed had the proper rank; one base had an
           Installation VAO, but no Unit VAOs; and only 63 percent of the VAOs completed
           the required FVAP training.

       •   The Not Compliant area is Material Dissemination. Interviews with Unit VAOs
           revealed that: three of five did not use a tracking system for delivery of Federal
           Post Card Application (FPCA) to members; zero of five delivered FPCA by
           January 15th; and four of five did not deliver the FPCA by September 15th.




                         Figure 7: Marine Corps Compliance Levels




                                              13
Marine Corps Inspector General Report. The Marine Corps Inspector General
submitted to the DoD IG their “Annual Assessment of USMC Voting Assistance Program
for 2004,” on February 15, 2005. The assessment was based on four Major Command
Voting Officer command inspections, nine Installation Voting Assistance Officer
command inspections, and 59 Unit Voting Officer (UVAO) inspections conducted during
calendar year 2004. The Marine Corps Inspector General concluded that:

       “The Marine Corps has an effective Voter Assistance Program and has complied with the reference,
       with the exception of the discrepancies noted in the report.”

The complete Marine Corps Inspector General Report is at Appendix K.




                                             14
Compliance Summary

   Military Services Compliance. Overall, analysis of the data collected at the 12
   installations indicates that 3 of the 4 Military Services are Compliant and one Military
   Service is Marginally Compliant. All Services had one or more area that was either
   Marginally Compliant or Not Compliant.

   Again, the six major areas included in the compliance assessment are: VAO Appointment,
   Information Dissemination, Material Dissemination, Training, Resources and Development
   of Written Guidance. Specifically, the results of the analysis are:

                                                 Marginally
                              Compliant                         Not Compliant
                                                 Compliant

            Army                   4                 1                 1

            Navy                   2                 3                 1

            Air Force              5                 0                 1

            Marine Corps           5                 0                 1



   The variations in compliance indicate inconsistent management and oversight. The Voting
   Assistance Program is a DoD-wide program. Currently, management controls depend
   largely upon individual commanders and vary from installation to installation and unit to
   unit. Chain of command oversight is required to ensure consistent levels of program
   compliance.

   Common Problem. Three of the Services’ instructions do not contain policy and guidance
   for support of dependents, dispersed personnel, deployed personnel, and tenant
   organizations, as required by DoD Directive 1000.4. These categories of voters comprise a
   significant portion of the absentee voter population at installations. The Services have
   developed detailed instructions, but they currently do not include policy and procedures for
   support of all eligible personnel outlined in the directive. During site visits, we observed
   that levels of support provided to these personnel vary considerably--pro-active support to
   no support. Detailed policy and procedures should be developed to ensure dedicated
   support for all eligible personnel.




                                            15
This page left intentionally blank




           16
Chapter 3: Assessment of Voting Assistance Program Effectiveness

Overview

   The statistical analysis described below indicates that the effectiveness of the voting
   assistance program can be improved.

   We conclude the key to program effectiveness is not how many people voted, because
   there are many factors outside the FVAP’s control that influence an individual’s decision
   to vote. Instead, we consider the measures of effectiveness depend on whether or not
   voters consider themselves informed about deadlines and procedures, and whether they
   have the information and materials needed to register and vote. What the voter does with
   the information and materials is personal. Therefore, we measure effectiveness in the
   following three areas:

       •   Training

       •   Information Dissemination

       •   Materials Dissemination

   Without success in these three areas, all other program activities add little value.

   The question is not whether the information and materials were “made available,” but did
   the voters know the information (deadlines and procedures) and did they receive the
   materials? In the absence of a rigorous monitoring system that tracks actual delivery, we
   relied on survey data to indicate effectiveness.

   Analysis of the survey data collected during the 12 unannounced installation visits
   indicates that the voting assistance program is Not Effective. The overall level of
   effectiveness is 52 percent. See Appendix C, “Compliance and Effectiveness Statistical
   Data Tables,” for details.


Background

   The goal of the Federal Voting Assistance Program is to ensure that uniformed absentee
   voters and eligible voting age dependents receive information on voting registration,
   procedures, and materials pertaining to scheduled elections, including dates, offices,
   constitutional amendments and other ballot proposals.

   As described in Chapter 2, the team sent the web-based survey questionnaire to 30 percent
   of the active duty population at each of 12 DoD installations. A copy of the “Uniformed
   Absentee Voters Questionnaire” is at Appendix D. Furthermore, the evaluation team
   interviewed 40 voting assistance officers across the installations.




                                             17
Uniformed Absentee Voters Survey

   Source of Assessment Data and Limitations. DoD IG assessed the FVAP effectiveness
   based on the data summarized at Appendix C, “Compliance and Effectiveness Statistical
   Data Tables.” The statistical sample is relatively small when compared to the total military
   population and the total number of installations. For example, the DoD IG team received
   2,712 survey responses. These responses comprise only 0.002 percent of the active duty
   military population. Similarly, the 12 installations visited (see Appendix G, “Installations
   Visited”) represent less than 0.01 percent of all DoD bases worldwide. The team
   interviewed 40 voting assistance officers. These small sample sizes preclude any statistical
   projections, and, at best, the data should be used to illustrate only indications and trends.


Results of Uniformed Absentee Voters Survey

   Analysis of the data collected during the 12 unannounced installation visits indicates that
   the voting assistance program was Not Effective. The overall level of effectiveness among
   the Military Services is 52 percent. Figure 8, “Program Effectiveness Levels,” summarizes
   the results for each of the three major areas.




                          Figure 8: Program Effectiveness Levels

                                            18
       •   Training. The program is Not Effective in providing training for uniformed
           absentee voters. Survey results indicate that only 58 percent of the respondents
           received training in accordance with DoD Directive 1000.4. Training is designed to
           help voters correctly complete the registration forms and ballots, so as to minimize
           the possibility of an invalid registration and/or ballot. This finding suggests that
           there is an opportunity to improve training to command members.
       •   Information Dissemination. The program is Not Effective at disseminating
           information. Survey results indicate that 59 percent of the respondents did not
           receive information pertaining to registration deadlines, deadlines for mailing
           ballots, and voting procedures.
       •   Materials Dissemination. The program is Not Effective at Disseminating
           Materials. Survey results indicate that only 38 percent of respondents indicated that
           they received voting materials. Timely receipt of the Federal Post Card Application
           (FPCA) and Federal Write in Absentee Ballot (FWAB) is required to properly
           register and vote.


Dependents Survey Results

    The number of survey responses from dependents was too low – only 19 responses – to
    render any meaningful analysis of program effectiveness for dependents. According to our
    interviews with Voting Assistance Officers and observations during installation visits, the
    team concluded that support for dependents is sporadic and varied.

    Providing support for voting age dependents is a major challenge for the Services. Access
    and communications channels are very limited. Most VAOs rely on the active duty
    member to pass information and materials to dependents. With the exception of Dover
    AFB, none of the installations visited had implemented a program designed for
    dissemination of information and materials to dependents. Dover AFB had established a
    dependent out-reach program at the Family Support Center and through spousal clubs and
    organizations. See Appendix E, “Good Ideas.”


Effectiveness Summary

    Survey results indicate that guidance and resources provided by the FVAP Office and
    Services has not translated into an effective program at the unit and installation level.

       •   Military Voters -- Not effective. Only 58 percent of the survey respondents
           indicated that they received training; only 59 percent received information; and
           only 38 percent received voting materials.
       •   Dependent Voters -- Uncertain. Because only 19 dependents volunteered to
           respond to the survey, there is insufficient data to make a meaningful conclusion.




                                              19
This page left intentionally blank




               20
   Chapter 4. Conclusion, Observations, and Recommendations

Conclusion


    As described in Chapters 2 and 3, this assessment concludes that the voting assistance
    program is Compliant. However, survey responses suggest that the program’s
    effectiveness is deficient in the key aspects of delivering training, information, and
    materials to the voters.

    Figure 1 in Chapter 1 appropriately illustrates that the key element in the current FVAP
    process is the VAO. The VAO can ensure the effectiveness of the program by getting
    information, instructions and materials to the voter. However, to support the VAO
    properly, the Federal Voting Assistance Program needs to consider and infuse effective
    process improvement that directly impacts the delivery of these items to the voter at the
    local unit and installation level.

    The FVAP Office does its job well, as do the higher echelons of command. Although no
    DoD program is exempt from the pursuit of continuous process improvements, the voting
    assistance program policies are adequate, but need to be refined to include a system of
    metrics to enhance process management and control. Elements for significant
    improvement are already in place, but are not integrated to provide information up and
    down the echelons of the Services.

    Ultimately, this program is a knowledge management program, intended to get the right
    information to the right people at the right time in the right context so they can make an
    informed decision and take action.

    In the final analysis, this system has two types of decision-makers, each with different
    information needs and with different decisions to make – absentee voters and the voting
    assistance program leadership. We address each type below.


Absentee Voter Information Needs

    Given the availability of voter information and materials from various sources, the
    absentee voter has three essential needs:

       1. How do I register and vote (if I want to)? (What are the procedures?)

       2. When do I have to act? (What are the deadlines?)

       3. What materials do I need to follow the procedures? (Materials?)

    As illustrated in Figure 1, Chapter 1, FVAP infrastructure (from the FVAP Office down
    and through all levels of command, all the way to the VAOs) exist for one reason--to
    provide that information to the absentee voters.




                                             21
 The only way to judge whether the absentee voters are getting “the right information at the
 right time in the right context” is to ask them. Hence, a survey is required. Our survey
 specifically asked whether the respondent understood how to vote and what the deadlines
 were.

 Regarding training, 42 percent of        NOTE: We have no reliable information for dependents
 the respondents indicated they           because we cannot encourage enough of them to
 had not received what they               voluntarily respond to a survey. Dependents are the
 considered to be training, yet 78        unreachable voters. On the other hand, VAP managers can
 percent of the 40 VAOs indicated         brief uniformed absentee voters at required formations,
 they conducted training for              meetings, and other official gatherings.
 eligible voters.

 As for delivering information, only 35 to 55 percent knew the procedures for using the
 Federal Post Card Application (FPCA) and the Federal Write-in Absentee Ballot (FWAB).
 Only 40 to 50 percent of the respondents were aware of the deadlines.
 Regarding materials, approximately 35 to 45 percent of the respondents indicated that they
 received their FPCA and FWAB on time.

 The conclusion is that despite a good effort on the part of the VAOs, they only reach about
 40 to 50 percent of their uniformed target audience, and considerably less of the dependent
 audience. This could be why voters are not aware of the procedures or deadlines.
 Although we did not survey the “quality” of training, it is possible that training is presented
 in an ineffective manner or is too complicated that voters do not retain what they need to
 know.

 In order to train well, VAOs must themselves know their duties and procedures. That leads
 us to the next group of decision-makers--the FVAP leadership from USD (P&R) level to
 unit VAOs.


FVAP Decision-Maker Information Needs

 FVAP decision-makers have information needs, as well. They need to know:

    1. How does the system work? (What are my duties & procedures?)

    2. Where is the system breaking down? (Can I measure trends? How do I get real-
       time feedback?)
    3. What can be done to correct the situation? (What are the root causes and possible
       corrective actions to take?)

 1. How does the system work? There is no question that the senior officials in the
 program, from the FVAP Office to the senior service voting representatives know their
 duties and procedures. They are well informed and work hard to share that information
 with the people who are the key elements of the FVAP infrastructure – the VAOs.

 However, VAO work is a secondary duty. As such, it probably does not get the consistent,
 focused attention desired by the FVAP program leadership. When does the VAO have
 time to learn all the aspects of the system? When does the VAO have the time to plan,


                                           22
           conduct, and execute effective training? When does the VAO have time to reach out to all
           the people who aren’t getting the word? In fact, how does the VAO know who is not
           getting the word or the materials? If the VAO finds that someone is not getting the word
           (for instance, dependents), then how does the VAO find out what effective practices he
           could employ to correct the situation?

           2. Where is the system breaking down? FVAP leaders do not have reliable, nearly real-
           time feedback to identify which individuals are not getting their knowledge needs met.
           There is no feedback to measure whether voters get training on procedures, information on
           deadlines, or voting materials. Nor can the leaders identify which VAOs are untrained,
           which training materials are ineffective, or who should be encouraged to submit alternative
           registration or voting forms. In short, the FVAP leaders cannot judge at any point in time
           where the system is failing or what actions to take. There are no management measures to
           help FVAP leaders manage, control, or supervise the program.

           3. What can be done to correct the situation? Without knowing where the system is
           breaking down, no one can take timely corrective action without expending a tremendous
           amount of resources. Broadcast messages through command letters, radio, and television
           are only so effective. A preferred solution would be targeting individuals with messages
           related to their particular situation. For instance, if the state deadline for registration is
           approaching, sending out an indiscriminate broadcast message for voters to go online and
           check the deadline for their state, is less effective than sending an actionable, situation-
           specific e-mail message directly to the affected person.


       Improving the FVAP System

           The linchpin for an effective voting assistance program is the VAO, or at least the
           functions of the VAO. The reality is that VAO duties compete with real world mission-
           related duties. Requiring more “command emphasis” is not a solution.

           Therefore, two management questions arise in improving the FVAP system:

               1. How can the system be altered to streamline the VAO’s functions?

               2. How does the FVAP leadership get timely, meaningful feedback to identify where
                  to apply corrective actions and to determine which actions to take?

           We suggest that possible answers to these questions require consideration of good
           management tools and eGovernment solutions, as outlined below.


    Good Management

           Good management stresses the importance of capturing performance measurements so that
           management can take appropriate action. 1


1
    According to the National Defense University, Role of Metrics in Organizational Transformation, Lesson 28,
    Information Resources Management College, measures (metrics) are “a tool for gathering essential management
    information for reporting, control, and process improvement.”



                                                         23
                  “Despite the vast amounts of data that informs decision making in the
                  American defense community, there is surprisingly little statistical
                  thinking at the decision-making level.”2

           This quote stresses the importance of gathering meaningful data and interpreting it in such
           a way as to allow decision-makers to reduce variations in performance. Without such
           statistics, interventions are as likely to be harmful as helpful.

           Currently, the FVAP collects data through “data calls,” periodic meetings, and surveys.
           All these methods are labor-intensive. The primary measure used to indicate whether the
           program is effective is to report on “100% contact.” In 2004, a highly intensive command
           effort, including letters from Service Secretaries, command information broadcasts, and
           all-force e-mails were executed in the final months before the election. A key question was
           “Has every eligible absentee voter been contacted?”

           If this is the key metric, is there a better way of obtaining it – one that is less labor-
           intensive, and more nearly real-time?

           Having captured the data at a particular point in time, what can be done with it? What
           patterns emerge and what management actions can be taken? Can interventions be targeted
           at the point(s) most needed?

           At a minimum, the FVAP leadership, from top to bottom, should ensure that timely,
           meaningful, and reliable information is captured and disseminated to people who can best
           take appropriate corrective action.

           An improved automation system may enable decision-makers to collect and distribute this
           information (both feedback and suggested corrective actions), more effectively.


    eGovernment

           FVAP already has the key elements of an effective automated system, but they are not
           integrated to provide information up and down the echelons of the system.

           The Services and FVAP leadership are constantly developing innovative ways – including
           electronic means – to get information and materials to eligible absentee voters. For
           example, the Army broadcasts an e-mail to all its 1.3 million account holders, encouraging
           them to register and vote. The Coast Guard acted with similar use of the e-mail system.
           The FVAP website provides the Voting Guide, Federal Post Card Application, and Federal
           Write-in Absentee Ballot, as well as online training for VAOs. World-wide toll-free
           telephone assistance is available for people with questions. Thirty-three states now allow
           electronic transmission of blank ballots and 24 states allow electronic transmission of the
           voter’s ballot.

           However, the program should consider options to adopt “electronic means” as the primary
           medium to disseminate information and materials.3 There are opportunities to build on the
           functionalities of the current system. What is missing is a mechanism to do most of the
2
    David S. Chu and Nancy Spruill in Statistics and Public Policy, Clarendon Press, Oxford, 1997.
3
    Secretary of Defense “Report on DoD Actions to Support Voting Assistance to Armed Forces Outside the U.S.,”
    December 2004



                                                           24
          dissemination through electronic “push” means (e.g., a targeted e-mail to voters of a
          particular state, informing them of both national and state-specific requirements and
          deadlines).

          The next step is to leverage electronic delivery by asking the system to generate nearly
          real-time feedback statistics on who are receiving the messages, and, thus, an electronic
          means of measuring the status of the “100 percent contact” objective. If an e-mail is
          received and opened, it is counted as contact. If delivered, but not opened, it is reported as
          such, enabling leadership to identify what units need VAO assistance or to prescribe
          alternative courses of action.

          We suggest that not only can an automated system provide materials and information on
          procedures and deadlines, it can also provide just-in-time training for eligible voters,
          electronic forms and materials. Such an approach would complement the current VAO
          system and allow the VAO and chain of command to better manage by exception.


        Management by Exception

          The option to exploit electronic dissemination of information, training, and materials
          presents an opportunity to exercise a “management by exception” approach. The VAOs
          can focus their efforts more precisely, reaching out to those who need assistance.
          Furthermore, in those places where e-mail and Web site delivery is not practical, VAOs
          can employ the more traditional face-to-face approach.


        Changes to Oversight Approach

          As management improves the effectiveness of the voting assistance program using metrics
          and eGovernment initiatives, Congress should consider modifying the current Inspectors
          General annual oversight procedures.

          If an electronic delivery and reporting system enables FVAP leadership to reliably monitor
          the program, then it follows that the current labor-intensive IG oversight effort could be
          minimized or eliminated.


      Observations


                     If we continue to do things the way we have always done them,
                     we will get the results we have always gotten.4

          Currently, the Federal Voting Assistance Program relies on a labor-intensive, DoD-wide
          infrastructure of part-time voting assistance officers at all echelons whose attention to
          voting is periodic, despite the program’s perennial schedule. It is unreasonable to expect

4
    Management saying, anonymous.



                                                    25
significant improvement in the FVAP as long as the key players – VAOs – are required to
divert their attention away from mission-essential (primary) duties.

Although managers and leaders are aware of the principle of using measures (metrics) in
controlling programs and improving processes, the FVAP program does not prescribe
timely, meaningful, and consistent measurements of compliance and effectiveness. DoD
Directive 1000.4 specifically requires the heads of DoD Components and the Uniformed
Services to “continually evaluate command voting programs,” yet the method for obtaining
the measurements currently requires an extensive human infrastructure. Furthermore, what
data are collected does not seem to contribute significantly to the effectiveness of the
system.

Although DoD and the Services conducted a major effort to “get the word out” in the
months immediately preceding the 2004 Federal election, all major effectiveness areas
were graded “Not Effective.” Given the relatively meager return on the investment
suggested by our survey data, DoD should explore alternative means of informing the
voters and conducting program oversight.
Observation 1: Oversight. Management of the FVAP would benefit from an accurate,
embedded, and consistent measurement effort. Without such measures, decision makers
operate without meaningful data about the program. This absence of useful measurements
makes program control and process improvement difficult. (See Recommendation 1.a.)

Observation 2: Training of VAOs. VAOs are not trained on all program objectives.
Training does not include “Good Ideas” or “Best Practices.” Nearly half of VAOs
interviewed had not completed any training at all. The voting assistance program assumes
VAOs are well trained and knowledgeable. This assessment indicates this assumption is
faulty. (See Recommendation 1.b.)

Observation 3: Automated Delivery and Reporting Infrastructure. To compensate for
the fact that voting assistance will always be a secondary duty, senior leadership can expect
significant improvement only if a radically different approach is applied.

We suggest that a different primary delivery method should take advantage of the
pervasive nature of information technology to get information and materials to the potential
voters; thus, creating “management by exception” approaches for VAOs and the chain of
command. This requires a “push” delivery system.

The current FVAP Web sites are passive, requiring users (VAOs, as well as voters) to take
the time to go to them and search for the information they need (i.e., a “pull” system). An
automated delivery system could improve all three effectiveness areas (Training,
Information Dissemination, and Materials Dissemination).
Because automation lends itself to timely and unobtrusive measurements, an automated
delivery method might provide decision-makers the measurements necessary to focus on
specific areas of substandard behavior, rather than relying on a massive DoD-wide
command emphasis effort in the months immediately preceding a major election.

Since the FVAP is oriented largely on disseminating information and materials to inform
potential voters, and on reporting information up the chain, it makes sense to explore how
to automate both the delivery of information and progress reports. (See Recommendation
1.c.)



                                         26
Observation 4: Change to Public Law. If the FVAP leadership modifies the current
monitoring process to improve program performance, a legislative change proposal to
Public Law 107-107 may be justified to reduce IG oversight requirements. (See
Recommendation 1.d.)

Observation 5: Gaps in Policy. While the Services’ policies adequately cover assistance
for uniformed absentee voters, three of the Services’ policies are silent on assisting one or
more of the other populations directed by the DoD Directive 1000.4, “Federal Voting
Assistance Program,” April 14, 2004. The Marine Corps alone addressed all populations
outlined in the directive. (See Recommendation 2.)




                                          27
This page left intentionally blank




               28
Recommendations


 1. Recommend the Under Secretary of Defense for Personnel and Readiness:

       a. Revise DoD Directive 1000.4, “Federal Voting Assistance Program,”
       June 3, 2002, to require that the Federal Voting Assistance Program Office and
       Military Services collect and analyze metrics on a more frequent basis, as a means
       of identifying areas of concern in accomplishing program objectives. See
       Appendix F, “Recommended FVAP Metrics.”

                Management comments: USD (P&R) partially concurred. The Army
                did not comment on this recommendation. The Air Force concurred.
                The Marine Corps indicated that a web-based tracking system will be
                implemented in CY 2005 to monitor and collect data.




       b. Revise DoD Directive 1000.4 to:

           (1) Require Voting Assistance Officer training to include all program
           objectives outlined in DoD Directive 1000.4.

                  Management comments: USD (P&R) concurred. The Air Force
                  concurred. The Army and Marine Corps did not comment on
                  this recommendation.



           (2) Require Voting Assistance Officer training to include appropriate good
           ideas and best practices as tools for accomplishing objectives.

                   Management comments: USD (P&R) concurred. The Air
                   Force partially concurred. The Army and Marine Corps did not
                   comment on this recommendation.



           (3) Require Voting Assistance Officers to complete Federal Voting Assistance
           Program training within 60 days of appointment.

                    Management comments: USD (P&R) concurred. The Air Force
                    concurred. The Army and Marine Corps did not comment on
                    this recommendation.




                                         29
                    c. Develop an automated delivery and reporting system.

                                    Management comments: USD (P&R) concurred. The Army did
                                    not comment on this recommendation. The Air Force did
                                    concur. The Marine Corps indicated that a web-based tracking
                                    system will be implemented in CY 2005 to monitor and collect
                                    data.


                    d. Develop and forward a legislative change proposal to Congress that would
                    reduce or eliminate oversight requirements by Services’ and DoD IGs,
                    commensurate with the success of process improvements and automated reporting
                    procedures.

                                    Management comments: USD (P&R) concurred. The Air
                                    Force did not concur. The Army and Marine Corps did not
                                    comment on this recommendation.


           2. The Secretaries of the Army, Navy, and Air Force revise all Voting Assistance Program
           instructions to include policy to support for all eligible personnel directed by DoD
           Directive 1000.4.


                                 Management comments: The Army noted that their regulation
                                 was revised in October 2004 to include policy for support of
                                 dependents and dispersed personnel. The Air Force concurred.
                                 The Marine Corps did not comment on this recommendation.



           See Appendix N for detailed management comments.5




5
    The Navy did not provide comments in time for this report



                                                          30
Appendix A. Scope and Methodology
Program Guidance Review. This evaluation focused on DoD and Military Service’s voting
assistance programs. We reviewed program guidance (laws, policies, DoD directives and Services’
instructions). We developed a detailed checklist based on requirements outlined in the program
guidance. Checklist items were selected for survey questionnaire, Voting Assistance Officer
(VAO) interviews, and site validation. For assessment purposes, the six compliance areas
included VAO Appointments, Information Dissemination, Materials Dissemination, Training,
Resources, and Written Guidance. The three effectiveness areas included Training, Information
Dissemination, and Materials Dissemination. Each of these compliance and effectiveness areas
have one or more related sub-areas.

Population Sampling. Our overall analytical approach was to assess the Voting Assistance
Program compliance and effectiveness using statistical data. Statistical data were tabulated from
the survey responses and site visits. We visited 12 installations that comprise .01 percent of the
1,142 military installations world wide. We conducted a random sampling of assigned personnel
and received survey responses from 2,712 uniformed absentee voters which represent 0.002
percent of the active duty military population of 1,139,034.

Limitation on Use of Data. The analytical approach did not intend to project the statistical results
against the population of each installation, Service, or DoD as a whole. The purpose was to
capture indications of broad trends in program compliance and effectiveness.

Web-Based Survey. We assessed the compliance of the Military Services and the overall
effectiveness of the voting assistance program based on the survey responses from 2,712
uniformed absentee voters and analyzed that data against the program compliance in accordance
with requirements of DoD Directive 1000.4, “Federal Voting Assistance Program,” April 14,
2004. The survey questionnaire was administered to randomly selected individuals for all units at
each installation. DMDC provided unit rosters for each installation. The roster was transmitted to
the DoD OIG’s Quantitative Methods Division (QMD). QMD randomly selected 30 percent of
individuals on the rosters and assigned a web-based survey access code. The DoD OIG’s
Information Support Division (ISD) downloaded uniformed absentee voters’ input from the Web-
based survey and transferred the data files to the QMD for tabulation. The tabulation of responses
was organized by service, installation, members’ rank, and units.

Unannounced Installation Visits. We visited three installations from each of the four Services.
At each location we conducted an assessment of the installation’s absentee voting assistance
program.

At the selected installations, we used a three-phased approach to assess the voting assistance
program.

       First Phase. The first phase included initiation of a Web-based survey questionnaire to
       7,196 uniformed absentee voters. We also visited child care centers and solicited survey
       participation of 200 dependents. A copy of the questionnaire is at Appendix C. Officially,
       the respondents are anonymous since nothing in the questionnaire or in the processing of
       the questionnaires identifies the specific respondent. The goal of the voting assistance
       program is to ensure that uniformed absentee voters and eligible voting age dependents
       receive information about voting registration, procedures, and materials pertaining to
       scheduled elections, including dates, offices, constitutional amendments, and other ballot
       proposals. Questions were designed to gather information and determine the effectiveness
       of the voting assistance program.


                                                 31
       At all locations the Installation Voting Assistance Officer (IVAO) was provided the lists of
       randomly selected survey participants. The IVAO reviewed the lists for accuracy. In some
       cases, units had deployed. The lists were corrected as required and then transmitted to unit
       commanders for action. We visited child care centers and passed out flyers to dependents
       and requested participation in the survey.

       Second Phase. The second phase of our assessment involved interviewing IVAOs and
       Unit Voting Assistance Officers (UVAOs). We developed a standard questionnaire based
       upon the compliance checklist. Each IVAO and UVAO was asked the same questions.
       Documentation was also requested during interviews. At each installation we requested
       interviews with the IVAO and UVAO from one small, one medium, and one large unit.
       VAO responses were documented and tabulated. Compliance statistics were tabulated
       based on interview responses and documents collected.

       Third Phase. The third phase involved site validation and collection of documentation
       based on program requirements outlined in DoD Directive 1000.4. We validated the
       existence of websites, VAO telephone numbers in base directories, and locations for voter
       information. We collected documentation regarding VAO appointments, performance
       evaluations, FVAP training, and efforts to disseminate information and materials.
       Compliance statistics for major assessment areas were tabulated based on site validation.

Assessment Methodology. Statistical data from the web-based survey and site visits were
compiled and analyzed by percentile. Levels of effectiveness and compliance were determined
based on percentile rankings. Assessment criteria are summarized in Figure 9, “Statistical
Assessment Criteria,” below:




                         Figure 9: Statistical Assessment Criteria


We performed this evaluation from April 2004 through March 2005 in accordance with title 10,
section 1566, United States Code. The Services’ Inspectors General reports are also required to be
reviewed and included in this report. The respective Service reports are at Appendixes H, I, J, and
K. We did not validate the Service Inspectors General reports.




                                                32
Use of Technical Assistance. Personnel from the DoD IG Quantitative Methods Division assisted
with questionnaire development and data analysis. Also, the DoD IG Web Development Team
assisted with developing and implementing the web-based survey questionnaire.




                                             33
This page left intentionally blank




               34
                   Appendix B. Related Reports

     During the last five years, the General Accounting Office/Government Accountability
     Office (GAO), the Department of Defense, and the Department of State have issued reports
     on the FVAP and overseas absentee voting. Unrestricted GAO reports can be accessed
     over the Internet at http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.

Government Accountability Office (GAO)
     GAO Report No. GAO-01-1026, “Elections: Voting Assistance to Military and Overseas
     Citizens Should Be Improved,” September 28, 2001
     GAO Report No. GAO-01-470, “Elections: The Scope of Congressional Authority in
     Election Administration,” March 2001

Department of Defense
     Secretary of Defense “Report on DoD Actions to Support Voting Assistance to Armed
     Forces Outside the U.S.,” December 2004

     DoD IG Report No. D-2004-065, “DoD Implementation of the Voting Assistance
     Program,” March 31, 2004

     DoD IG Report No. D-2003-072, “DoD Compliance with the Uniformed and Overseas
     Citizens Absentee Voting Act,” March 31, 2003

     DoD IG Report No. D-2001-145, “Overseas Absentee Ballot Handling in DoD,” June 22,
     2001

Department of State
     United States Department of State Report No. 01-FP-M-045, “Review of Implementation
     of the Federal Voter Assistance Program,” August 2001.




                                            35
This page left intentionally blank




           36
Appendix C. Compliance and Effectiveness Statistical Data Tables
Compliance Data
Source: Installations visits and Voting Assistance Officers interviews.
Area                                             USA        + USN      +    USAF       +   USMC     =   Aggregate   Percentage   Overall
                                                                                                                                 Rating
   ►   Sub-area

VAO Appointments                                   80%        65%              94%           72%                       78%   =   Compliant
     ► IVAO Assigned                             3 of 3      3 of 3         3 of 3         3 of 3       12 of 12     100%
     ► IVAO proper rank/Pay Grade                3 of 3      0 of 3         3 of 3         0 of 3       6 of 12        50%
     ► UVAO Assigned (installations)             3 of 3      3 of 3         3 of 3         2 of 3       11 of 12       92%
     ► UVAO proper rank/Pay Grade                5 of 8      5 of 7         8 of 8         5 of 5       23 of 28       82%
     ► VAOs Available Consistently               8 of 11     8 of 10        7 of 11        6 of 8       29 of 40       73%
     ► VAOs Assigned in Writing                  5 of 11     4 of 10        11 of 11       7 of 8       27 of 40       68%
     ► VAO duties evaluated                      NE          NE             NE             NE           NE          NE              Not
                                                                                                                                 evaluated

Information Dissemination                          91%        90%             100%          100%                      95%    =   Compliant
       ►   VAOs expeditiously disseminate info   10 of 11    9 of 10        11 of 11       8 of 8       38 of 40      95%
           and materials


Material Dissemination                             79%        39%             71%            20%                      54%    =   Not
                                                                                                                                 Compliant
       ►   UVAOs track FPCA hand-delivery        7 of 8      3 of 7         8 of 8         2 of 5       20 of 28      71%

       ►   UVAOs delivered FPCA by 15 Jan        4 of 8      1 of 7         1 of 8         0 of 5       6 of 28       21%
           deadline
       ►   UVAOs delivered FPCA by 15 Sept       2 of 2      3 of 5         8 of 8         1 of 5       14 of 20      70%
           deadline




                                                                       37
                                                USA        + USN      +    USAF       +   USMC     =   Aggregate   Percen       Overall
                                                                                                                   tage         Rating

Training                                          69%        65%              82%           82%                      75%    =   Compliant
      ►    VAOs that performed annual service   8 of 11     8 of 10        11 of 11       8 of 8       35 of 40      88%
           member training
      ►    VAOs completed annual VAO training   7 of 11     5 of 10        7 of 11        5 of 8       24 of 40      60%


Services Resources                               100%        95%             100%          100%                      98%    =   Compliant
      ► Provide Web sites                       1 of 1      1 of 1         1 of 1         1 of 1       4 of 4       100%
      ► VAOs purchase/maintain suffient         11 of 11    9 of 10        11 of 11       8 of 8       39 of 40      98%
          materials


Service Written Guidance                          20%        60%              20%          100%                      50%    =   Non-
                                                                                                                                compliant
      ►    Military covered                     1 of 1      1 of 1         1 of 1         1 of 1       4 of 4       100%
      ►    Dependents covered                   0 of 1      1 of 1         0 of 1         1 of 1       2 of 4        50%
      ►    Deployed covered                     0 of 1      1 of 1         0 of 1         1 of 1       2 of 4        50%
      ►    Dispersed covered                    0 of 1      0 of 1         0 of 1         1 of 1       1 of 4        25%
      ►    Tenant units covered                 0 of 1      0 of 1         0 of 1         1 of 1       1 of 4        25%




                                                                      38
Effectiveness Data
Source: Uniformed Absentee Voters Survey

EFFECTIVENESS                     Measured as the Percentage of Respondents who answered affirmatively


Area                               USA     +   USN     +   USAF    +   USMC    =   Average      Overall Rating
       ►   Sub area

Training for Absentee
                                                                                   58%          Not Effective
Voters
      ► Voter received             55%          60%         46%        70%           58%
          annual FVAP training



Information Dissemination                                                          59%          Not Effective
       ►   Info on VAP             65%          55%         60%        60%           40%
       ►   Aware of                45%          63%         38%        57%           51%
           Registration
           Deadlines
       ►   Aware of Voting         42%          52%         33%        50%           44%
           Deadlines
       ►   Aware of VAP            89%          77%         85%        81%           83%
       ►   Aware of VAO            68%          59%         70%        66%           66%
       ►   On-base location for    80%          74%         77%        80%           78%
           assistance
       ►   FPCA can be used        61%          49%         50%        58%           55%
           to register and
           request Absentee
           Ballot




                                                           39
Area                               USA   +   USN   +   USAF   +   USMC   =   Average   Overall Rating
       ►   Sub area


       ►   FWAB can be used        39%       36%       30%        38%         36%
           as back-up if Regular
           Absentee Ballot is
           not received

       ►   FVAP website            66%       61%       59%        62%         62%
       ►   FVAP Voting Guide       76%       64%       62%        72%         69%

       ►   Service or              66%       56%       55%        59%         59%
           installation voting
           website


Materials Dissemination                                                      38%       Not Effective
       ►   FPCA delivered by       45%       35%       32%        49%         40%
           Jan 15th
       ►   FWAB received           36%       28%       29%        48%         35%




                                                       40
Appendix D. Uniformed Absentee Voter
            Questionnaire



.              Absentee Voter Questionnaire Active Duty & Dependents
                                              -




                                   Concerns About This Questionnaire


Will my questionnaire responses be kept anonymous? Yes. There is no information being collected
that could be used to identify individuals. Your responses will be combined with information from other
DoD personnel to report the views and experiences of groups of personnel. Do not use any personal
names anywhere on this questionnaire.


Why me? Installations have been selected to solicit information from DoD personnel regarding the
absentee ballot process. Information collected in this questionnaire will be used to report DoD personnel
awareness of the absentee ballot voting process. Your responses are important to provide us with insights
to this process.


                                           Privacy Notice

Authority: This questionnaire is being conducted by the IG DoD under authority of Section 1566,
chapter 80 of title 10, United States Code.


Principal Purpose: Information collected will be used to determine DoD personnel awareness of the
procedures and resources used to support the absentee ballot voting process. This information may assist
in the formulation of policies to improve the absentee ballot voting process.


Routine Uses: None.


Disclosure: Providing information on this questionnaire is voluntary. There is no penalty if you choose
not to respond. However, maximum participation is encouraged. No identifying information is being
collected that could identify individuals. Only summary information will be reported.




                                                   41
Completing This Questionnaire

•   This is not a test.
•   Select answers that you believe are most appropriate.
•   Fill in the appropriate circle or circles.
•   Complete all questions before exiting Web site.



Demographic and Voting Questions

1. What is your status? Click on one circle.


o   Active Duty

o   Reservist

o   National Guard
o   Dependent


2. What is your/your sponsor’s Service? Click on one circle.

o   Army
o   Navy
o   Air Force
o   Marine Corps
o   0SD field activity or other DoD Agency


3. What is your/your sponsor’s rate or rank? Click on one circle.

o   E1—E4
o   E5—E9
o   W01-W05
o   01-03
o   04-010


4. Did you enlist or join the service during the past 12 months? Click
on one circle.

    o   Yes
    o   No (if no. please click here to skip to question 7)
    o   N/A (if N/A, please click here to skip to question 7)




                                                    42
5. During the recruitment/enlistment process, were you provided the
following? Click on circle for item.


a. Voter registration information.

    o   Yes
    o   No


b. National Voter Registration Form.

    o   Yes
    o   No


6. Did you receive information on the voter assistance program
during basic training? Click on one circle.

    o   Yes
    o   No


7. Did you receive command sponsored training this calendar year on
absentee voter registration and voting procedures? Click on one
circle.

    o   Yes
    o   No


8. Do you know the location on base/ship where you can obtain
voting material and assistance? Click on one circle.

    o Yes
    o No


9. During this calendar year, did your/your sponsor’s command have
any special events dedicated to providing information on voter
registration and upcoming elections? Click on one circle.

    o   Yes
    o   No


10. Do you know that your/your sponsor’s Service has a voting
assistance program? Click on one circle.

    o   Yes



                                                  43
    o   No


11. Are you an Installation or Unit Voting Assistance Officer
(IVAO/UVAO)?

    o   Yes (If yes, please click here to skip to question 15)
    o   No


12. Do you know who your Unit Voting Assistance Officer is? Click on
one circle.

    o   Yes
    o   No, (If no. please click here to skip to question 14)


13. During 2004, did your Unit Voting Assistance Officer provide
assistance upon request? Click on one circle.

    o   Yes
    o   No
    o   Assistance not requested


14. During 2004, did you receive the following?
Click on one circle for each item.

                                                                    Yes       No
a. Information about the Service voting assistance program

b. In-hand delivery of the Federal Post Card Application for
Registration and Request for Absentee Ballot by January 15th

c. Federal Write-in Absentee Ballot

15. Are you aware of Armed Forces Voters Week? Click on one circle.

    o   Yes
    o   No


16. During 2004, were you aware of the voting and communication
tools listed below? Click on circle for each item.

                                                                Fully     Somewhat Unaware
                                                                Aware     Aware
a. The Federal Voting Assistance Program Web site that                             •

provides voting-related information and resources


                                                       44
b. 2004-05 Voting Assistance Guide that provides State-                                 •

by-State information that enables you to register and vote
absentee
c. A Service or installation voting assistance program                    •

Web site



17. Before taking this survey, were you aware that the Federal Post
Card Application (FPCA) could be used to register to vote and to
request an absentee ballot? Click on one circle.

    o   Yes
    o   No


18. Before taking this survey, were you aware that the Federal Write-In Absentee is a backup ballot that
can be used if you did not receive your regular absentee ballot? Click on one circle.

    o   Yes
    o   No

19. Do you know the following deadlines for the 2004 Federal
elections? Click on one circle for each item.

                                                               Yes               No
a. Registration date.
b. Last date to mail ballots.



Thank you very much for participating in this survey.




                                                    45
This page left intentionally blank




           46
Appendix E. Good Ideas
   During site visits, we observed various installations using procedures that, if adopted
   Service-wide, could increase the effectiveness of the DoD voting assistance program.
   Some of these and others are posted on the FVAP Web site and were noted during the
   2003 DoD OIG evaluation.

   We have chosen to label this group of procedures as “Good Ideas,” rather than “Best
   Practices” because labeling something a “Best Practice” implies a more rigorous vetting
   process than we have applied. Rather than address the issue in this report, we have
   chosen to highlight the good ideas that we observed. At the request of the Under
   Sercretary of Defense for Personnel and Readiness, we are conducting a separate
   evaluation of “lessons learned and best practices” related to the FVAP.

   The following are good ideas observed during site visits that should be considered in
   revising DoD Directive 1000.4, Service instructions, and VAO training curriculum:

   U.S. Air Force

      •   The Air Force required commanders to submit metrics up through the chain of
          command that reflect the status of efforts to achieve 100 percent contact with
          assigned personnel. The collection of metrics can be used to monitor
          performance of the Voting Assistance Program on a Service-wide level.

      •   At Dover AFB, the IVAO established a dependent out-reach program at the
          Family Support Center (FSC). The senior enlisted military person assigned to
          FSC contacted dependents that visited FSC. He disseminated voter information
          and materials. He provided FVAP training to the presidents of the enlisted and
          officers’ spouses club. He set up voter drives among the dependents by setting up
          booths at various locations on base. The out-reach program resulted in a dedicated
          program to provide voting assistance support to dependents.

      •   Dover AFB included FVAP training in the First Term Airmen’s course. All first
          term airmen are required to complete the course when they first report to the base.
          The program ensures that all newly reported junior personnel receive voter
          assistance training.

      •   At Patrick AFB, the IVAO established a voting hotline and distributed cards with
          his name and the hotline phone number. This is an efficient method for telling the
          uniformed absentee voters who the Voter Assistance Program points of contact
          are. .

   U.S. Navy

      •   The U.S. Navy used the NVAP website to collect metric data from VAOs, a
          useful and convenient tool for program oversight and monitoring. This is also a
          fast and efficient method for collecting data and monitoring the Voting Assistance
          Program.

      •   The U.S. Navy instruction includes a command inspection checklist for providing
          guidance to installation and unit commanders regarding specifically what is to be
          inspected.


                                           47
  •   At NAS Jacksonville, voting information was disseminated using the Plan of the
      Day and the Plan of the Week. Additionally, the IVAO distributed and displayed
      posters to publicize his phone number and availability of FVAP Web site.


U.S. Army

  •   U.S. Army initiated a Service-wide Personnel Asset Inventory as a means of
      achieving 100 percent contact with assigned personnel. VAOs used unit rosters to
      track personnel contacted and reported results up the chain of command for
      monitoring 100 percent hand delivery of FPCA as required by DoD Directive
      1000.4.

US Marine Corps

  •   Twenty Nine Palms and Beaufort Marine Corps bases assigned the Staff Adjutant
      as the Voting Assistance Officer as a permanent collateral duty. The effect is that
      it eliminates or minimizes the IVAO position not being filled because of
      personnel rotations. The Staff Adjutant as a permanent billet is always filled.
      When the current Adjutant transfers, the replacement assumes the position as
      IVAO. There is also contact relief by having a knowledgeable VAO available to
      pass on both program requirements and a continuity book.

  •   Twenty Nine Palms put together deployment kits for deploying personnel. The
      kit contained voter information and materials to enable personnel to register and
      vote while deployed. This method ensures that deploying personnel receive voter
      information and materials before they deploy.

  •   The USMC Order 1742.1A (Change 1), “Voter Registration Program,” May 14,
      2002, includes a VAO appointment letters outlining responsibilities, which
      ensures that newly appointed VAOs receive specific guidance regarding the
      performance of their duties.




                                       48
Appendix F. Recommended FVAP Metrics
Performance Metrics are a useful tool for monitoring the management of the Voting Assistance
Program and accomplishment of program objectives. The following metrics are proposed for
consideration:




                                   FVAP Performance Metrics
Metric                Goal                           Target    % as of (date)   Target Goal   Comments
                                                      (%)                       achieved
                                                                                (Yes/No)
IVAOs Appointments    Determine the percentage            90
                      of the total number of
                      installations that have
                      IVAOs appointed in
                      writing.
UVAOs Appointment     Determine the percentage            90
                      of the total number of units
                      that have UVAOs
                      appointed in writing.
IVAOs Training        Determine the percentage            90
                      of the number of IVAOs
                      that completed FVAP
                      training.
IVAOs Training        Determine the percentage            90
                      of the total number of
                      UVAOs that completed
                      FVAP raining.
UVAOs in-hand         Determine the percentage            90
delivery of FPCA by   of the total number of
(date)                UVAOs that delivered the
                      FPCA by required dates.
Command FVAP          Determine the percentage            90
Training              of UVAOs that conducted
                      command training on
                      registration & voting
                      procedures during even
                      years and federal
                      Elections.




                                                     49
Using this table as a guide, the compliance levels of the program, taken at a particular time, may
look like the following chart, enabling the leadership (in this case the DoD FVAP Office) to take
appropriate action.




                         Figure 10: Notional Metrics Chart




                                                50
Appendix G. Installations Visited

Department of the Army
Fort Detrick, Frederick, Maryland*
Fort Monroe, Hampton, Virginia*
Fort Dix, New Jersey*

Department of the Navy
Naval Station, China Lakes, California*
Naval Air Station Jacksonville, Jacksonville, Florida*
Naval Air Station, Atlanta, Georgia*
Marine Corps Logistics Base, Albany, Georgia*
Marine Corps Air Station Beaufort, South Carolina*
Marine Corps Air Ground Combat Center, Twenty-nine Palms, California*

Department of the Air Force
Dover Air Force Base, Dover, Delaware*
Edwards Air Force Base, California*
Patrick Air Force Base, Florida*

*Locations where uniformed absentee voter questionnaires were administered.




                                                      51
This page left intentionally blank




           52
Appendix H. Department of the Army Inspector
General Report

                           DEPARTMENT OF THE ARMY
                                  OFFICE OF THE INSPECTOR GENERAL
                                          1700 ARMY PENTAGON
                                        WASHINGTON DC 20310-1700




     SAIG-ID                                                                 11 February 2005


MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL, ATTN: SP & TA
DIVISION, CDR J. R. BOBBITT


SUBJECT: Assessment of the FY 2004 Army Voting Assistance Program


1. Purpose: To provide the Department of Defense Inspector General’s Office with results of
the Army Inspector General’s annual assessment of the Army’s Voting Assistance Program.


2. Background:
a. Title 10, Section 1566, United States Code, 28 December 2002 requires the Inspector General of each
Service to conduct an annual review of the effectiveness and compliance of their voting assistance
program. Also, Department of Defense (DOD) Directive 1000, 4, dated 3 June 2002 requires each Service
to review their voting assistance programs annually at every level of command to ensure compliance with
DOD regulations and public law. Paragraph 5.3 of the directive further requires The Inspector General of
each Service to report the results of the assessment to the DoD Inspector General by 31 January of each
year.
b. The Department of the Army Inspector General (DAIG) assessed the Voting Assistance Program by
Major Army Commands (MACOM5) to determine their program effectiveness and compliance.
Notification of this requirement was provided to MACOMs in a memorandum dated 10 May 2004.


3. Assessment Goal: The goal of the FY 2004 DAIG Voting Assistance assessment was to evaluate the
effectiveness of the Army’s Voting Assistance Program and compliance with Army and DOD directives.


4. Assessment Methodology: To achieve the assessment goal, TIG directed that each MACCM
Inspectors General, (CONUS and OCONUS), to conduct the required annual inspection of The Army’s


                                                  53
Voting Assistance Program. This method allowed for the determination of whether current policies and
directives are effectively incorporated into the Army’s Voting Assistance Program.


5. Assessment Results: The Acting Inspector General has determined MACOMs are in
compliance with the instructions to conduct an annual assessment of The Army Voting
Assistance Program and that the majority of the inspected units have a Voting Assistance
Program. This determination was based upon:


a. An Acting Secretary of the Army directed Special Inspection of The Army’s Voting Assistance
Program conducted by DAIG during August 2004.


b. US Army MACOM5 provided input for DAIG-ID analysis. MACOMs reported adequate command support at all
levels for the voting assistance program.


6. FINDINGS: The following findings are provided in the requested DODIG report format:


a. Personnel Assignment:


(1). VAO assign at the appropriate grade level. (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(2). UVAO assigned at level of command? (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(3). Maximum number of voters that can be represented by VAO adhered to?
Finding: Insufficient data was collected to support or not support this finding.


(4). UVAO of the rank 02/E-7 above designated in writing for each unit of 25 or more permanently assigned
members. (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(5). Senior Service Representative at Flag Rank appointed? (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(6). Senior Voting Action Officer. Military person, 04/E8 or above, appointed? (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.




                                                          54
(7). Commissioned Officer authorized to administer oath? (UOCAVA)
Finding: Insufficient data was collected to support or not support this finding.


SAIG-ID
SUBJECT: Assessment of the FY 2004 Army Voting Assistance Program


b. Training:


(1). VAO received training. (Public Law 107-1 07)
Finding: Preponderance of data collected indicates compliance.


(2). MACOM, installations and UVAO attend FVAP workshop during even numbered
years with Federal elections. For remote locations did VAO access FVAP website for training. Training documented
at the installation or base level. (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(3). Does basic training and command courses emphasize and advertise voting assistance programs? (DODINST
1000.4)
Finding: Preponderance of data collected indicates compliance.


(4). Train units preparing for deployment. (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(5). Recruitment offices personnel informed of policies and received training to carry out voter registration
assistance. (DODINST 1344.13)
Finding: Preponderance of data collected indicates compliance.


SAIG-ID
SUBJECT: Assessment of the FY 2004 Army Voting Assistance Program


(6). Train service members on absentee registration and voting procedures during years of Federal elections.
(DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


c. Material Distribution:


(1). UVAOs hand deliver SF76s to eligible voters by Il/date//I. Develop a system to ensure. (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.




                                                          55
(2). National Voter form made available to enlistees? (PL 107-107)
Finding: Preponderance of data collected indicates compliance.


(3). Network established to distribute voter information? Was voter registration materials
(SF 186 Federal write-in absentee ballots, Standard Form 76, Federal Post Card Application, Voting Assistance
Guide, etc) distributed in a timely manner to allow participation in elections? (Public law 107-1 07 & DODINST
1000.4)
Finding: Preponderance of data collected indicates compliance.


SAIG-ID
SUBJECT: Assessment of the FY 2004 Army Voting Assistance Program


(4). Special day designated for dissemination of voter information and material? (Public Law 107-1 07)
Finding: Preponderance of data collected indicates compliance.


(5). Prospective enlistees provide a DD Form 2644 “mail Voter Registration Application” and DD Form 2645
“Voter registration Information. (DODINST 1344.13)
Finding: Preponderance of data collected indicates compliance.


(6). Recruitment offices transmit registration applications in a timely manner.
(DOD INST1 344.13)
Finding: Insufficient data was collected to support or not support this finding.


(7). Sufficient voting materials on-hand? (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


d. Communication and Information Network


(1). Voting Assistance internet homepage maintained that includes names and links to
VAOs, procedures to order voting materials and links to other Federal & State voting websites? (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(2). Designated location on base, installation, or ship where voting material & assistance is available. (DODINST
1000.4)
Finding: Preponderance of data collected indicates compliance.


 (3). Established and published a special telephone service, the ‘Voting Action Line,” to link UVAOs with SVAOs.
(DODINST 1000.4)
Finding: Insufficient data was collected to support or not support this finding.



                                                          56
(4). Provide telephone operators at every military installation with names, e-mail addresses and telephone number of
UVAOs and IVAOs. (DODINST 1000.4)
Finding: Insufficient data was collected to support or not support this finding.


e. Commanders/Installation Level Involvement


(1). MACOMS, etc continually evaluate voting programs. (DODINST 1000.4)
Finding: Preponderance of data collected indicates compliance.


(2). Developed command-wide awareness & assistance program and activities during Armed Forces Voters Week
(DOD INST 1000.4)
Finding: Preponderance of data collected indicates compliance.


SAIG-ID
SUBJECT: Assessment of the FY 2004 Army Voting Assistance Program


 (3). Written policies developed to support eligible military members and their dependents including those deployed,
dispersed, and tenant organizations. (DODINST 1000.4)
Finding: Insufficient data was collected to support or not support this finding.


(4). Installation level reviews/inspections include an assessment of compliance with UOCAVA and DODINST
1000.4 (Public Law 107-107)
Finding: Insufficient data was collected to support or not support this finding.


(5). VAO’s performance documented in the Evaluation/FITREPs. (DODINST 1000.4)
Finding: Insufficient data was collected to support or not support this finding.


f. The Department of the Army Inspector General Agency point of contact concerning the matter is Mr. J. R.
Williams at (703) 601-1100 or e-mail ieffr.williamsus.army.miI




                                                        57
This page left intentionally blank




               58
     Appendix I. Department of the Navy Inspector
                   General Report
                   DEPARTMENT OF THE NAVY
                   NAVAL INSPECTOR GENERAL
                   1014 N STREET SE SUITE 100
                  WASHINGTON NAVY YARD DC 20374-5006




                                                       IN REPLY REFER TO:
                                                       1742
                                                       Ser N33/0094
                                                       26 JAN 2005


From: Naval Inspector General
To: Department of Defense Inspector General


Subj: REPORT OF ASSESSMENT OF NAVY VOTING ASSISTANCE
PROGRAM


Ref: (a) DoD Directive 1000.4 of 14 April 2004


End: (1) Report of Assessment


1. In accordance with reference (a), enclosure (1) is submitted as the annual
assessment of the Navy Voting Assistance Program.

2. My point of contact for voting issues is CDR Vera Parker. She can be
reached at 202-433-6642 or by e-mail at vera .parkercnavy.mi1.




Copy to:

PERS-6
   NAVY VOTING ASSESSMENT REPORT FOR CALENDAR YEAR 2004

                                          59
Background: Public Law 107-107, December 28, 2001, Title XVI, Section 1601 ©, Uniformed
Services Voting, tasked Inspectors General of the Military Departments to conduct annual
reviews and provide an assessment of their service’s compliance with the Voter Assistance
Program. The assessment in this report is based on the specific Voter Assistance Program
requirements outlined in Public law 107-107, UOCAVA, DODD 1000.4, and DODD 1344.13


Methodology: The Naval Inspector General (NAVINSGEN) used several methods to assess the
Navy Voting Assistance Program (NVAP) for effectiveness and compliance. NAVINSGEN
conducted voting surveys and interviewed Unit/Installation Voting Assistance Officers (VAOs)
during Area Visits and Command Assessments. Additionally, NAVINSGEN conducted a Navy-
wide survey and received responses from over 84,000 Sailors attached to ashore/afloat units
within each Echelon II claimancy. Another method was input from the Navy Voting Action
Officer (NVAO). Also taken into consideration, were articles, briefings, NAVADMINS, and
personal observations on the Navy’s voting program.


Findings: Overall, the NVAP assessment for calendar year 2004 was satisfactory. It appeared
many VAOs were appointed and trained in the beginning of 2004 resulting in a relatively slow
start in providing Sailors with voting information and material. From the middle of calendar year
2004 until the November elections, there was increasingly stronger emphasis at every level of
command to inform absentee voters and give them the tools to exercise their constitutional right
to vote. Although there was greater emphasis on the voting program during the latter half of
2004, there were still instances based on our survey responses during that period where voting
information and/or material did not reach Sailors. The findings for this report were determined
from the following: two NAV]NSGEN Area Visits (includes interviews with VAOs from three
installations and nine commands), a Command Assessment; NAVINSGEN conducted voting
surveys, NAVINSGEN observations and input from the NVAO (input based on seven site visits,
VAO survey results, data from Voter Information Management System (VIMS), which contains
weekly status reports from VAOs, and other sources).


A. Personnel Assignment:


1. VAO assigned at the appropriate grade level. (DODD 1000.4)
NAVINSGEN observed a couple of instances where the VAO was not the appropriate grade
level due to operational/resources constraints. However, the majority of VAOs assigned
were at the appropriate grade level.


2. UVAO assigned at level of command. (DODD 1000.4)
NAVINSGEN found VAOs assigned at Installation, Major Command, and Unit level. The
NVAO reported the VIMS Database reflect 100% assignment of VAOs at level of
commands consisting of 25 or more permanently assigned Navy personnel.


3. Maximum number of voters that can be represented by VAO adhered to. When necessary
some commands utilized assistance based on their need. For example, commands
containing thousands of potential absentee voters, VAOs utilized divisional and


                                               60
departmental assistant VAOs. In many cases, such as ships where personnel are confined
by the area of the ship, VAOs were able to make contact with the crew and did not require
as many assistants.


4. UVAO of the rank 021E-7 above designated in writing for each unit of 25 or more
permanently assigned members. (DODD 1000.4)
The majority of UVAOs were designated in writing.


5. Senior Service Representative at Flag Rank appointed. (DODD 1000.4) Yes.


6. Senior Voting Action Officer. Military person, 04/E8 or above, appointed. (DODD1000.4)
An 04 occupied the NVAO position for most of 2004, but was recently relieved by an 0-3.


7. Commissioned Officer authorized to administer oath. (IJOCAVA)
Commissioned VAOs were aware of this responsibility, but the enlisted VAOs didn’t
realize DoD Directive 1000.4 authorizes all designated VAOs to administer oaths in
connection with voter registration and voting. For the infrequent times when enlisted
VAOs were placed in that position, they sought the support of a commissioned officer.


B. Training:


1. VAO received training. (Public Law 107-107)
Per OPNAVINST 1742.1, all VAOs are directed to participate in the Federal
Voting Assistance Program (FVAP) training. The NVAO coordinated with the
FVAP to have this training held on various Naval Stations throughout the world.
Almost all VAOs responded that they received training either through the FVAP
workshop or on-line.


2. MAJCOM, installations and UVAO attend FVAP workshop during even numbered years with
Federal elections. For remote locations did VAO access FVAP website for training? Training
documented at the installation or base level. (DODD 1000.4) Almost all VAOs in remote
locations, deployed or shore-based reported they attended either a FVAP Workshop or
completed the on-line training. Training was also conducted via VTC for several deployed
units. About half of all VAOs reported their training was documented; the other half was
not aware of this requirement at the time of training and did not maintain documentation.


3. Basic training and command courses emphasize and advertise voting assistance programs.
(DODD 1000.4)
Recruit Training Command and Service Schools Command Great Lakes reported they
inform new Sailors on absentee registration and voting.


4. Train units preparing for deployment. (DODD 1000.4)
Yes. The NVAO regularly corresponded with Echelon II Leadership and was informed this


                                             61
process was incorporated in pre/post-deployment planning meetings and afloat units’
standard operating procedures.


5. Recruitment offices personnel informed of policies and received training to carry out voter
registration assistance. (DODD 1344.13)
Recruiting unit VAOs reported being trained in providing voter registration assistance.


6. Train service members on absentee registration and voting procedures during years of Federal
elections. (DODD 1000.4)
The NVAO reported this requirement was met in 2004. Many VAOs used e-mail and/or
Plan of the Weekl.Day to train Sailors on the absentee registration and voting process. A
drawback to this approach is uncertainty if the intended audience understood it or even
read it. Also, some Sailors may not have considered this as training where the VAO did.
Some VAOs held GMT on the absentee voting process, which offers the audience an
opportunity to ask questions or get clarification on absentee registration and voting
procedures.


C. Material Distribution:


1. UVAOs hand deliver SF76s to eligible voters by Il/date//I. Develop a system to ensure.
(DODD 1000.4)
The NVAP website provided specific information to VAOs to acquire and deliver SF-76s.
NVAO reported 100% delivery of SF-76s prior to deadlines from the VIMS database.
However, during the two NAVINSGEN Area Visits conducted in March and April, there
were some VAOs waiting to receive their voting material and thus unable to hand deliver
SF-76s by 15 January. Also, survey responses NAVINSGEN received in August from
Echelon U commands reviled there were still thousands of Sailors who reported not
receiving an SF-76, which indicated some VAOs probably missed the in-hand delivery of
SF-76s by 15 August for eligible voters serving overseas. There was still time for VAOs to
make in-hand delivery of SF-76s for eligible voters in the United States by the 15
September deadline, such as one Echelon II command that reported they simply had a
9,971 shortage of SF-76s and ordered additional forms for distribution when received.


2. National Voter Registration form made available to enlistees. (PL 107-107) Yes.


3. Network established to distribute voter information. Voter registration materials (SF
186 Federal write-in absentee ballots, Standard Form 76, Federal Post Card Application, Voting
Assistance Guide, etc) were distributed in time to allow participation in elections. (Public law
107-107 & DODD 1000.4)
Aggressive efforts were made to reach eligible voters with information on elections and
voting procedures by means of Plan of the Week/Day, command- wide e-mail
announcements, General Military Training (GMT) sessions, bulletin board postings, and
absentee voter-signup stations in prominent locations. Also, VAOs were extremely
resourceful in distributing voting forms. Based on the VAO survey by the NVAO, nearly


                                               62
70% of VAOs utilized assistant VAOs, the Command Leadership Team, specifically the
networking cap ability of the Command Master Chiefs, Chief Petty Officer Messes,
Ombudsmen Support Groups, and Public Affairs Offices. Others used Girls Scouts and
other community groups to distribute forms at the NEX complexes overseas.


4. Special day designated for dissemination of voter information and material. (Public Law
107-107)
Besides a special day, most VAOs utilized other events to tie-in voter registration drives
such as pre-deployment workshops, GMT training venues, Closed Circuit Television
Programs, Tax Preparation Workshops, of July and Labor Day celebrations, etc.


5. Prospective enlistees provide a DD Form 2644 “mail Voter Registration Application” and DD Form
2645 “Voter registration Information. (DODD 1344.13)
Yes, according to Recruiting VAOs’ responses to the VAO survey and contact with the NVAP staff.


6. Recruitment offices transmit registration applications in a timely manner.
(D0DD1344.13)
Yes, according to Recruiting VAOs’ responses to the VAO survey and contact with the NVAP staff.


7. Sufficient voting materials are on-hand. (DODD 1000.4)
The Navy had ample material on-hand for distribution. Some commands did not initially order
enough material and had to order more later.


D. Communication and Information Network


1. Voting Assistance Internet homepage is maintained that includes names and links to VAOs, procedures
to order voting materials and links to other Federal & State voting websites. (DODD 1000.4)
Yes, the NVAP Website, www.persnet.navv.mflInvap, was heavily advertised through periodic
NAVADMINS and base newspapers. VAOs were directed to the appropriate area of the website for
voting information (e.g. monthly Voting Information Newsletter) and voting material ordering
procedures. The site attracted 52,000 visitors, nearly 1,500 2,000 daily in October. It was the one-
                                                                -

stop online shop for all VAO support. It provided voter information, points of contact, forms,
training, answers to FAQs, and promoted teamwork through networking and sharing of best
practices.


2. Designated location on base, installation, or ship where voting material & assistance is available.
(DODD 1000.4)
Yes, according to more than 96% of all VAOs in the VAO survey


3. Established and published a special telephone service, the “Voting Action Line,” to link UVAOs with
SVAOs. (DODD 1000.4)
Yes, the Navy Personnel Command phone and web-based customer service center 1-866-U-ASK-
NPC or www.persnet.navy.mil! provided virtual “around the clock” answers to general voting
questions and served as a timely and vital communications, link for remote areas and deployed


                                                     63
VAOs.


4. Provide telephone operators at every military installation with names, e-mail addresses and telephone
number of UVAOs and WAOs. (DODD 1000.4) Many VAOs proactively partnered with telephone
operations personnel to post their phone number, while others continuously posted their contact
info in the unit’s Plan of the Day/Week, television closed circuit news programs, radio shows, public
address/announcement system. Still, there were responses from NAVINSGEN voting surveys and
reports from Bupers Online and Career Management Symposium quick polls that indicated a lack
of awareness by some Sailors on who their VAO is.


Commanders/Installation Level Involvement


    1. MAJCOMS, etc., continually evaluate voting programs. (DODD 1000.4) Yes. There was
    extensive communication between Pers-67 and Echelon H leadership with regard to
    monitoring the performance of their subordinate commands.


    2. Command-wide awareness & assistance program and activities are developed during
    Armed Forces Voters Week. (DODD 1000.4)
    Yes, based on the input provided by Echelon II leadership, feedback received from
    VAOs per the NVAO conducted survey, and after action reports.


    3. Written policies are developed to support eligible military members and their dependents
    including those deployed, dispersed, and tenant organizations.
    (DODD 1000.4)
    OPNAVINST 1742.1 and information provided on the NVAP website discuss support
    for all potential absentee voters. Weekly e-mail from Pers-67 to VAOs included many
    topics, of which this was discussed several times.


    4. Installation level reviews/inspections include an assessment of compliance with UOCAVA
    and DODD 1000.4. (Public Law 107-107)
    NAVINSGEN assessed the voting program at the installation level as part of its Area
    Visits in 2004. Echelon II commands monitored and reviewed for compliance the
    performance of their subordinate commands. Additionally, the revised NVAP
    instruction (OPNAVINST 1742.1A) released in mid-December specifies each Echelon II
    command shall ensure voting program compliance is included in command
    inspections/reviews and results forwarded to NAVINSGEN.


    5. VAO’s performance is documented in the Evaluation/FITREPs. (DODINST 1000.4) This
    requirement is outlined in the revised NVAP instruction, OPNAV1NST 1742.1A.


Summary of Military Service level of compliance with voting assistance programs based on
statistical data from findings. Include a breakdown by specific areas (A. Personnel assignment,


                                                  64
B. Training, etc).


Personnel Assignment: Overall, VAOs are assigned at level of command, but there are instances
where VAOs are not at the appropriate grade level, (i.e., an E-6 designated an Installation VAO).
Surprisingly, the NVAO was an 0-4 for most of 2004, but was recently relieved by an 0-3. The
Navy should ensure the appropriate grade level is occupying such a visible position.


Training: NAVINSGEN interviewed three Installation and nine Unit VAOs and all received
training. In the NVAO survey conducted in November, 98% of the VAOs responded that they
attended a FVAP Workshop or completed on-line training in 2004.


Material Distribution: The Navy advertised well the process for ordering voting material, but
some VAOs got off to a slow start ordering the material and distributing it. Based on survey
responses, it appeared some Sailors did not receive in-hand delivery of the SF-76 by established
deadlines. In some cases commands had to reorder as late as August due to a shortage of SF-76s.


Communications and Information Network: The Navy did a great job advertising the NVAP website and
Voting Action Line. Both resources offered an abundance of information on voting for VAOs and
Sailors to access. Much effort was expended by both VAOs and the chain of command to draw attention
to voter registration assistance outlets via a variety of communications resources and not exclusively in
the print and/or automated telephone directory.


Recommendations (If required): Include responsible activity for implementing recommendation and
follow-up. DoD-IG developed this template in May 2004 to standardize the annual report the Service IGs
           -

submit for inclusion in the DoD-IG report to Congress. Since the type of voting information DOD-IG
wants the Service IGs to provide may change yearly, recommend DoD-IG annually review, update, and
distribute the template by January 3 19t of each calendar year. This measure should ensure all Service IGs
are using the same template to collect voting information for submission of their annual report.
-




The revised Navy voting instruction, OPNAVINST 1741.1A, requires Echelon II commands to ensure
voting program compliance is included in command inspections or reviews and results forwarded to
NAVINSGEN. Recommend NAVINSGEN provide each Echelon II IG a copy of the DoD-IG voting
template it will receive annually to assist Echelon II IGs in assessing the voting program during
inspections.




                                                   65
This page left intentionally blank




               66
Appendix J. Department of the Air Force Inspector
            General Report



                         DEPARTMENT OF THE AIR FORCE
                          OFFICE OF THE INSPECTOR GENERAL
                               WASHINGTON, DC


MEMORANDUM FOR ASSISTANT TO THE DOD INSPECTOR GENERAL
              (INSPECTIONS AND EVALUATIONS)

FROM: SAF/IG
      1140 Air Force Pentagon
      Washington DC 20330-1140

SUBJECT: USAF 2004 Voting Report

      In accordance with DoD Directive 1000.4, paragraph 5.2.1.8, the Air Force submits the
attached report providing an overall assessment of the Federal Voting Assistance Program.

     During calendar year 2004, the Air Force assessed the effectiveness of 174 USAF voting
programs at the squadron, group, wing, and command levels. Evaluations were conducted as a
combination of command inspections and unit self-inspections. The list of inspected units,
assessment questions, and noted discrepancies is provided for your review.

We’ve concluded that the Air Force Voting Program is satisfactory and are confident that
permanent fixes are in place to address the few discrepancies noted. Our point of contact for this
report is Captain Jacqueline Nickols, (703) 588-1534.

                                             STEVEN R. POLK
                                             Lieutenant General, USAF
                                             The Inspector General

Attachment:
USAF 2004 Voting Report

cc:

HQ AF/DPL




                        UNITED STATES AIR FORCE VOTING REPORT




                                                67
                                              TO THE

                                   DOD INSPECTOR GENERAL

                                   (For the Period Jan 31 Dec 04)
                                                      —




1. In accordance with DoD Directive 1000.4, the Air Force evaluated the effectiveness of the voting
programs at the squadron, group, wing, and command levels during CY2004. USAF inspected 174 voting
programs through a combination of command inspections (CI) and self- inspections (SI).
Overwhelmingly, programs were in compliance with few problems noted. Inspected units are listed below
by MAJCOM.

       a. Headquarters Air Combat Command Inspector General (HQ ACC) conducted three
       inspections, and 12 ACC units conducted self-inspections:

       UNIT/LOCATION
       AlA, Lackland AFB, TX (CI)
       509 BW, Whiteman AFB, MO (CI)
       2OFW,ShawAFB,SC (CI)
       2BW, BarksdaleAFB,LA (SI)
       27FW, Cannon AFB, NM (SI)
       355 WG, Davis-Monthan AFB, AZ (SI)
       5 BW, Minot AFB, NI) (SI)
       55 WG, Offutt AFB, NE (SI)
       9 RW, Beale AFB, CA (SI)
       99 ABW, Nellis AFB, NV (SI)
       98 RANW, Nellis AFB, NV (SI)
       28 BW, Ellsworth AFB, SD (SI)
       1 FW, Langley AFB, VA (SI)
       4 FW, Seymour Johnson AFB, NC (SI)
       7 BW, Dyess AFB, TX, (SI)

       b. Headquarters Air Education and Training Command (HQ AETC) conducted 32 inspections,
       and 13 AETC units conducted self-inspections:

       UNIT/LOCATION
       97 AMW, Altus AFB OK (CI)
       81 TRW, Keesler AFB MS (Cl)
       17 TRW, Goodfellow AFB TX (CI)
       37 TRW, Lackland AFB TX (CI)
       59 MDW, Lackland AFB TX (CI)
       317 RCS, Oxon Hill MD (CI)
       314 RCS, Burlington NJ (CI)
       318 RCS, New Cumberland PA (CI)
       311 RCS, Cannonsburg PA (CI)
       313 RCS, North Syracuse NY (CI)
       319 RCS, Portsmouth NH (Cl)
       360 RCG, Hanscom AFB MA (CI)
       333 RCS, Patrick AFB FL (CI)
       339 RCS, Clinton Township Ml (CI)
       330 RCS, Indianapolis IN (CI)


                                                 68
337 RCS, Shaw AFB SC (CI)
331 RCS, Gunter Annex-Maxwell AL (CI)
58 SOW, Kirtland AFB NM (CI)
HQ 19 AF, Randolph AFB TX (CI)
HQ 2 AF, Keesler AFB MS (CI)
AF1T, Wright-Patterson AFB OH (CI)
82 TRW, Sheppard AFB TX (CI)
80 FTW, Sheppard AFB TX (CI)
332 RCS, Nashville TN (CI)
338 RCS, Wright-Patterson AFB OH (CI)
336 RCS, Moody AFB GA (CI)
367 RCG, Warner Robins AFB GA (CI)
364 RCS, Sacramento CA (CI)
368 RCS, Hill AEB UT (CI)
362 RCS, March ARE CA (CI)
314 AW, Little Rock AFB AR (CI)
479 FTG, Moody AFB GA (CI)
Air University, Maxwell AFB AL (SI)
HQ AFOATS, Maxwell AFB AL (SI)
HQ AETC, Randolph AFB TX (SI)
HQ AF Recruiting Service, Randolph AFB TX (SI)
42 ABW, Maxwell AFB AL (SI)
12 FI’W, Randolph AFB TX (SI)
14 FTW, Columbus AFB MS (SI)
47 FTW, Laughlin AFB TX (SI)
56 FW, Luke AFB AZ (SI)
71 FI’W, Vance AFB OK (SI)
325 FW, Tyndall AFB FL (SI)
381 TRG, Vandenberg AFB CA (SI)
336 TRG, Fairchild AFB WA (SI)

c. Headquarters Air Force Materiel Command (HQ AFMC) conducted five inspections,
and 16 AFMC units conducted self-inspections:

UNIT/LOCATION
AEDC, Arnold AFB, TN (CI)
AFFI’C, Edwards AFB, CA (CI)
OC-ALC, Tinker AFB, OK (CI)
ESC, Hanscom AFB, MA (CI)
OO-ALC, Hill AFB, UT (CI)
377 ABW, Kirtland AFB, NM (SI)
311 HSW, Brooks City-Base, TX (SI)
AAC, Eglin AFB, FL (SI)
AEDC, Arnold AFS, TN (SI)
AFFI’C, Edwards AFB, CA (SI)
AFRL, Edwards AFB, CA (SI)
AFRL, Mesa, AZ (SI)
AFRL, Rome, NY (SI)
AFRL, Wright-Patterson AFB, OH (SI)
AFRL, Eglin AFB, FL (SI)
AFRL, Kirtland AFB, NM (SI)
AFOSR, Arlington, VA (SI)
AFSAC, Wright-Patterson AFB, OH (SI)


                                    69
AMRC, Davis-Monthan AFB, AZ (SI)
ASC, Wright-Patterson AFB, OH (SI)
WRALC, Robins AFB, GA (SI)
d. Headquarters Air Force Reserve Command (HQ AFRC) inspected 14 voting assistance
programs, and 11 AFRC units conducted self-inspections:

UNIT/LOCATION
94 AW, Dobbins ARB, GA (CI)
914 AW, Niagara Falls AP, NY (CI)
445 AW, Wright-Patterson AFB, OH (CI)
349 AMW, Travis AFB, CA (CI)
604 MDS, Fairchild AFB, WA (Cl)
704 MDS, Kirtland AFB, NM (CI)
459 ARW, Andrews AFB, MD (CI)
512 AW, Dover AFB, DE (CI)
403 WG, Keesler AFB, MS (Cl)
302 AW, Peterson AFB, CO (CI)
310 SG, Schriever AFB, CO (CI)
916 ARW, Seymour-Johnson AFB, NC (Cl)
514 AMW, McGuire AFB, NJ (CI)
39 FF5, Moody AFB, GA (CI)
434ARW, Grissom ARB, IN (SI)
452AMW, March ARE, CA (SI)
3O1FW, Carswell ARS, TX (SI)
482FW, Homestead ARS, FL (SI)
926FW, New Orleans ARS, LA (SI)
440AW, Gen Mitchell lAP ARS, WI (SI)
934AW, Minn-St Paul lAP ARS, MN (SI)
91 lAW, Pittsburgh lAP ARS, PA (SI)
439AW, Westover ARB, MA (SI)
913AW, Willow Grove ARS, PA (SI)
91OAW, Youngstown-Warren RPT ARS, OH (SI)

e. Headquarters Air Force Special Operations Command (HQ AFSOC) conducted six
inspections, and four AFSOC units conducted self-inspections:

UNIT/LOCATION
720 STG, Hurlburt Field, FL (CI)
193 SOW, Harrisburg lAP, PA (Cl)
347 RQW, Moody AFB, GA (CI)
129 RQW, Moffett Field, CA (CI)
353 SOG, Kadena AB, Japan (CI)
106 RQW, Gabreski Field, NY (CI)
16 SOW, Hurlburt Field, FL (SI)
352 50G. RAF Mildenhall, UK (SI)
USAFSOS, Huriburt Field, FL (SI)
18 FTS, Hurlburt Field, FL (SI)




                                     70
f. Headquarters Air Force Space Command (HQ AFSPC) conducted four inspections, and
five AFSPC units conducted self-inspections:

UNIT/LOCATION
21 SW, Peterson AFB, CO (CI)
30 SW, Vandenberg AFB, CA (CI)
90 SW, F.E. Warren AFB, WY (CI)
460 SW, Buckley AFB, CO (CI)
21 SW, Peterson AFB, CO (SI)
45 SW, Patrick AFB, FL (SI)
50 SW, Schriever AFB, CO (SI)
341 SW, Malmstrom AFB, MT (SI)
SMC, Los Angeles AFB, CA (SI)

g. Headquarters Air Mobility Command (HQ AMC) conducted three inspections, and
nine AMC units conducted self-inspections:

UN1T/LOCATION
60 AMW, Travis AFB, CA (CI)
92 ARW, Fairchild AFB, WA (CI)
89 AW, Andrews AFB, MD (CI)
436 AW, Dover AFB, DE (SI)
62 AW, McChord AFB WA (SI)
305 AMW, McGuire AFB NJ (SI)
375 AW, Scott AEB IL (SI)
22 ARW, McConnell APB KS (SI)
319 ARW, Grand Forks AFB NI) (SI)
437 AW, Charleston AFB SC (SI)
6 AMW, MacDill AFB FL (SI)
43 AW, Pope AFB NC(SI)

h. Headquarters Pacific Air Forces (HQ PACAF) conducted four inspections, and five
PACAF units conducted self-inspections:

UNJT/LOCATION
374 AW, Yokota AB, Japan (CI)
51 FW, Osan AR, Korea (CI)
8 FW, Kunsan AB, Korea (CI)
15 AW, Hickam AFB, HI (CI)
36 ABW, Andersen AFB, Guam (SI)
354 FW, Eielson AFB, AK (SI)
3 WG, Elmendorf AFB, AK (SI)
18 WG, Kadena AB, Japan (SI)
35 FW, Misawa AR, Japan (SI)

i. Headquarters United States Air Forces in Europe (HQ USAFE) conducted three
inspections, and eight USAFE units conducted self-inspections:

UN1T/LOCATION
31 FW, Aviano AR, Italy (CI)
52 FW, Spangdahlem AR, Gennany (CI)
39 WG, Incirlik AB, Turkey (CI)
38 CS, Sembach AR, Germany (SI)


                                      71
39 ABW, Incirlik AB, Turkey (SI)
48 FW, RAF Lakenheath, England (SI)
65 ABW, Lajes Field, Portugal (SI)
85 GP, Keflavik NAS, Iceland (SI)
86 AW, Ramstein AR, Germany (SI)
435 ABW, Ramstein AR, Germany (SI)
4 ASOF, Heidelberg, Germany (SI)
j. The Air Force Inspection Agency (AFIA) conducted 15 inspections, and two units
under AFIA’s responsibility conducted self-inspections:

UN1T/LOCATION
AFNSEP, Ft. McPherson, GA (CI)
AFLMA, Maxwell AFB, AL (CI)
AFMA, Randolph AFB, TX (CI)
AFSVA, Randolph AFB, TX (CI)
AFAA, Pentagon, Washington, DC (CI)
AFFSA, Andrews AFB, lvii) (CI)
AFSC, Kirtland AFB, NM (CI)
AFLSA, Boiling AFB, DC (CI)
ANGRC, Andrews AFB, MD (CI)
AFNEWS, Kelly AFB, TX (CI)
AFCEE, Brooks AFB, TX (CI)
AFOTEC, Kirtland AFB, NM (CI)
AFHRA, Maxwell AFB, AL (CI)
AFDC, Langley AFB, VA (CI)
AFIA, Kirtland AFB, NM (CI)
1 1WG, Boilling AFB, DC (SI)
USAFA, CO (SI)

2. The overall assessment of the Air Force’s compliance with DoD Directive 1000.4,
Federal Voting Assistance Program (FVAP), related Air Force Instructions, the
Unifonned and Overseas Citizens Absentee Voting Act, and the specific requirements
listed below in paragraphs 2.A-2.E is satisfactory. The Air Force, at all levels, placed
increased emphasis on the voting program and associated requirements. Questions
assessed in each area are highlighted below with number of associated discrepancies in
bold.

A. Personnel Assignment:
1. VAO assign at the appropriate grade level. (DODD 1000.4) [Three discrepancies
noted.]
2. UVAO assigned at level of command. (DODD 1000.4)
3. Maximum number of voters that can be represented by VAO adhered to. [Two
discrepancies noted.]
4. UVAO of the rank 021E-7 above designated in writing for each unit of 25 or more
permanently assigned members. (DODD 1000.4) [One discrepancy noted.]
5. Senior Service Representative at Flag Rank appointed. (DODD 1000.4)
6. Senior Voting Action Officer. Military person, 04/E8 or above, appointed. (DODD
1000.4)



                                        72
7. Commissioned Officer authorized to administer oath. (UOCAVA)

      B. Training:

      1. VAO received training. (Public Law 107-107) [Three discrepancies noted.]
      2. MAJCOM, installations and UVAO attend FVAP workshop during even
      numbered years with Federal elections. For remote locations did VAO access
      FVAP website for training. Training documented at the installation or base level.
      (DODD 1000.4) [One discrepancy noted.]
      3. Basic training and command courses emphasize and advertise voting assistance
      programs. (DODD 1000.4)
      4. Train units preparing for deployment. (DODD 1000.4) [One discrepancy
      noted.]
      5. Recruitment offices personnel informed of policies and received training to
      carry out voter registration assistance. (DODD 1344.13)
      6. Train service members on absentee registration and voting procedures during
      years of Federal elections. (DODD 1000.4

      C. Material Distribution:

      1. UVAOs hand deliver SF76s to eligible voters by ///date///. Develop a system to
      ensure. (DODD 1000.4) [Six discrepancies noted.]
      2. National Voter Registration form made available to enlistees. (PL 107-107)
      3. Network established to distribute voter information. Voter registration
      materials (SF 186 Federal write-in absentee ballots, Standard Form 76, Federal
      Post Card Application, Voting Assistance Guide, etc) were distributed timely to
      allow participation in elections. (Public law 107-107 & DODD 1000.4)
      4. Special day designated for dissemination of voter information and material.
      (Public Law 107-107)
      5. Prospective enlistees provide a DD Form 2644 “mail Voter Registration
      Application” and DD Form 2645 “Voter registration Information.” (DODD
      1344.13)
      6. Recruitment offices transmit registration applications in a timely manner.
      (DODD1344.13)
      7. Sufficient voting materials are on-hand. (DODD 1000.4) [Two discrepancies
      noted.]

      D. Communication and Information Network

      1. Voting Assistance Internet homepage is maintained that includes names and
      links to VAOs, procedures to order voting materials and links to other Federal &
      State voting websites. (DODD 1000.4) [One discrepancy noted.]
      2. Designated location on base, installation, or ship where voting material &
      assistance is available. (DODD 1000.4)
      3. Established and published a special telephone service, the “Voting Action
      Line,” to link UVAOs with SVAOs. (DODD 1000.4) [One discrepancy noted.]
      4. Provide telephone operators at every military installation with names, e-mail
      addresses and telephone number of UVAOs and IVAOs. (DODD1000.4)

      E. Commanders/Installation Level Involvement

      1. MAJCOMS, etc., continually evaluate voting programs. (DODD 1000.4)
      2. Command-wide awareness and assistance program and activities are developed


                                      73
              during Armed Forces Voters Week. (DODD 1000.4) [Two discrepancies noted.]
              3. Written policies are developed to support eligible military members and their
              dependents including those deployed, dispersed, and tenant organizations.
              (DODD1000.4)
              4. Installation level reviews/inspections include an assessment of compliance with
              UOCAVA and DODD 1000.4. (Public Law 107-107)
              5. VAO’s performance is documented in the performance evaluations.
              (DODINST 1000.4) [Five discrepancies noted.]


3. POC is Capt Jackie Nickols, (703) 588-1534, jacqueline.nickols@pentagon.af.mil.




                                              74
Appendix K. Marine Corps Inspector General Report




                                DEPARTMENT OF THE NAVY
               DEPUTY NAVAL INSPECTOR GENERAL FOR MARINE CORPS MATTERS
                        INSPECTOR GENERAL OF THE MARINE CORPS
                               WASHINGTON, D.C. 20380-1775


                                                                                       1742
                                                                                  MRP-4fkbw
                                                                                   15 Feb 05



From: Inspector General of the Marine Corps
To: Department of Defense Inspector General

Subj: ANNUAL ASSESSMENT OF USMC VOTING ASSISTANCE PROGRAM FOR 2004


Ref: (a) DODDIR 1000.4

End: (1) List of Units Inspected with Results
(2) Automated Inspection Reporting System (AIRS) checklist for the Voting Program

1. Per the reference, this correspondence reports the results of the Inspector General of the
Marine Corps (IGMC) “Annual Assessment of the USMC Voting Assistance Program for 2004.”

2. The Marine Corps has an effective Voter Assistance Program and has complied with the
reference, with the exception of the discrepancies noted below. This assessment is based upon
the results of 4 Major Command Voting Officer (MCVO) command inspections, 9 Installation
Voting Assistance Officer (IVAO) command inspections, and 59 Unit Voting Assistance Officer
(UVAO) command inspections conducted during calendar year 2004. A list of the units
inspected and the inspection results are contained in enclosure (1). The Automated Inspection
Reporting System (AIRS), enclosure (2), guided the inspection process.

3. The inspection process included interviews with the unit’s Voting Assistance Officer, the
Commanding Officer, and Marines randomly selected within the unit. The inspection team
reviewed documents and procedures to ensure compliance with all Marine Corps orders and
directives. The team also inspected facilities to ensure Voting Assistance
Subj: ANNUAL ASSESSMENT OF USMC VOTING ASSISTANCE PROGRAM FOR 2004



                                              75
material was displayed in accordance with the Marine Corps Order. The following grades were
assigned: Mission Capable or Non-Mission Capable with findings, discrepancies and
recommendations to improve the unit Voting Program.
 4. Per the guidelines provided by the DODIG, the requested information is provided below:

   A. Personnel Assignment

     (1) 74 out of 74 commands, installations, and other units inspected had VAOs assigned at
the appropriate grade level.

(2) 60 out of 60 units inspected had UVAOs assigned.
(3) 51 out of 60 units adhered to the ratio of voters to UVAOs.

(4) 60 out of 60 IVAOs were designated in writing.

(5) Major General Ghormley is assigned as the Marine Corps Senior Service Voting
Representative (SSVR).

(6) Gunnery Sergeant Warford is assigned as the Marine Corps Service Voting Action Officer
(SVAO).

(7) All Marine Corps officers are authorized to administer the oath.

B. Training

 (1) 74 out of 74 VAOs inspected also received training.

 (2) VAOs completed the required training via workshops, web-based e-learning. Federal Voter
Assistance Program workshop slides or Service-provided training.

 (3) Training for Marine recruits was not being completed during basic training prior to the
1GMC inspections. Upon completion of the inspections voter awareness training was
incorporated into the syllabus for basic training.

 (4) Units conducted pre-deployment briefs prior to deploying. The Service Voting Action
Officer also conducted pre-deployment training for both I and II Marine Expeditionary Forces.
Each deploying Marine was provided the opportunity to complete a federal post card application
(FPCA) prior to deployment.

 (5) Yes.

 (6) 50 out of 60 units inspected had conducted the required Voter Assistance Program training,
or had scheduled the training on their unit training calendars. Per MCO 1742. IA, UVAOs are
required to provide training every year on voter registration and related. Subj: ANNUAL
ASSESSMENT OF USMC VOTING ASSISTANCE PROGRAM FOR 2004 procedures.

C. Material Distribution




                                                76
 (1) MCO 1742.1A gives specific guidance regarding the delivery of SF-76s to eligible voters.
Inspection results confirmed that VAOs understood and adhered to the MCO.

(2) Yes.

 (3) MCO 1742.IA gives specific guidance regarding the distribution of SF-76s and SF-186s to
eligible voters in a timely manner to ensure they are able to participate in elections. Inspection
results confirmed that VAOs understood and adhered to the MCO.

(4) VAOs used Voter Awareness Weeks as special opportunities for disseminating voter information and
materials.

(5) Yes.
(6) Yes.

 (7) All units inspected maintained an adequate supply of FPCAs and a sufficient stock of federal write-in
absentee ballots. Additionally, VAOs maintained and displayed voting posters, calendars, and Voting
Information Newsletters.

D. Communication and Information Network

 (1) Yes.

 (2) 6 of 9 inspected IVAOs designated at least one well-fixed location where voting materials and voting
assistance are available.

 (3) Yes, major command VAOs, IVAOs, and UVAOs are aware of the telephone number to contact the
SVAO.

  (4) Point-of-contact information for 5 of 9 IVAOs was maintained in their respective command
telephone directories.
E. Installation Commander Involvement

 (1) As part of the I.GMC inspection program, Commanding Generals are required to have a
Commanding General’s Inspection Program (CGIP). The CGIP is evaluated by the IGMC to ensure
compliance with MCOs and the Voting Assistance Program, as well as the intent for this program as
published by both the Inspector General and the respective Commanding General.

 (2) Inspection results indicated that command-wide awareness and assistance programs and activities
were developed throughout the year including Armed Forces Voters Week.

 (3) Written policies developed to support eligible voters included the MCO, a
Commandant of the Marine Corps White Letter to all Commanding Generals, General Officers,
Subj: ANNUAL ASSESSMENT OF USMC VOTING ASSISTANCE PROGRAM FOR 2004

Commanders and Officers-in-Charge, several “All Marine” administrative messages, two personal e-
mails from the SSVR to all Marines, as well as several e-mails from the SSVR and SVAO to all VAOs.

(4) Yes, the MCO and AIRS checklist are the guidance used when conducting reviews and inspections.
The MCO is in compliance with DODD 1000.4.

 (5) The MCO directs performance evaluation system reporting seniors to evaluate and comment on the


                                                   77
effectiveness of VAOs on the VAO’s performance evaluation.

5. 13 of the 74 units inspected were found non-mission capable. Immediate action was taken to correct all
discrepancies and findings for all 74 units inspected, with particular emphasis and specific guidance
provided to those units found to be non-mission capable.

6. The IGMC will continue to inspect, review, and update orders, policies and procedures to ensure
eligible personnel are effectively serviced by the Federal Voting Assistance Program and are afforded the
opportunity to exercise their right to vote.


                                                            M.W. MCERLEAN
                                                            By direction




CY-04 IGMC Inspection Results for the Voting Program (FA #210)
Major Command Voting Officer                   Results




                                                                 78
HQMC, Navy Annex                         Mission Capable: (4) Discrepancies, (0) Findings. (0) Recommendations
MARFORLANT                               Mission Capable: (2) Discrepancies, (0) Findings, (0) Recommendations
MARFORRES                                Mission Capable: (1) Discrepancies, (0) Findings, (0) Recommendations
MCCDC, Quantico, VA                      Mission Capable: (1) Discrepancy, (0) Findings, (1) Recommendation


Installation Voting Assistance Officer
Results
29 Palms, CA                             Mission Capable: (2) Discrepancies, (0) Findings, (2) Recommendations
HQMC, Henderson Hall MARCENTCOM Mission Capable: (6) Discrepancies, (0) Findings, (0) Recommendations
MARCENTCOM                               Mission Capable: (3) Discrepancies, (1) Finding, (0) Recommendations
4th MARDIV                               Non-Mission Capable: (2) Discrepancies, (3) Findings, (0) Recommendations
4thMAW                                   Mission Capable: (1) Discrepancy, (0) Findings, (1) Recommendation
4LhFSSG                                   Non-Mission Capable: (7) Discrepancies, (3) Findings, (1) Recommendation
MCB Quantico, VA                         Mission Capable: (2) Discrepancies, (0) Findings, (0) Recommendations
2d MARDIV, CarnLej, NC                    Mission Capable: (1) Discrepancy, (0) Findings, (0) Recommendations
2d FSSG, CamLej, NC                       Mission Capable: (4) Discrepancies, (0) Finding, (1) Recommendation


Unit Voting Assistance Officer
Results
MSGBn, Quantico, VA                      Mission Capable: (2) Discrepancies, (1) Finding, (1) Recommendation
HQBn, 29 Palms, C                        Mission Capable: (2) Discrepancies, (0) Findings, (3) Recommendations A
MCCES, 29 Palms, CA                      Mission Capable: (5) Discrepancies, (0) Findings, (0) Recommendations
HQBn, MarForLant, Norfolk, VA             Mission Capable: (8) Discrepancies, (0) Findings, (3) Recommendations
MCSFBN, Norfolk, VA                       Mission Capable: (1) Discrepancy, (0) Findings, (0) Recommendations —
                                                                                             OUTSTANDING
Hq, MARENTCOM                             Non-Mission Capable: (1) Discrepancy, (12) Findings, (4) Recommendations
Hq, MARCENTCOM                            Mission Capable: (4) Discrepancies, (1) Finding, (0) Recommendations
HqSvcBn, 4th FSSG, Marietta, GA           Non-Mission Capable: (7) Discrepancies, (2) Findings, (2) Recommendations
4 DentalBn, 4th FSSG, Marrietta, GA       Mission Capable: (8) Discrepancies, (1) Finding, (0) Recommendations
4Th RECON BN, 4th MARDTV                  Mission Capable: (0) Discrepancies, (0) Findings, (0) Recommendations
MALS-42, 4th MAW                         Non-Mission Capable:
HMX-1, MCAF, Quantico, VA                 Mission Capable: (3) Discrepancies, (0) Findings, (0) Recommendations
HqBn, MarForRes, N.Orleans, LA            Mission Capable: (4) Discrepancies, (2) Findings, (1) Recommendation
HMLA-773 (Detachment C)                  Non-Mission Capable: (13) Discrepancies, (2) Findings, (1) Recommendation
3rd BnI23 Mar, 4th MARDIV                 Non-Mission Capable: (14) Discrepancies, (2) Findings, (1) Recommendation
MATSS-1, Meridian, MS                     Mission Capable: (5) Discrepancies, (0) Findings, (4) Recommendations
MAD, China Lake, CA                       Mission Capable: (5) Discrepancies, (0) Findings, (2) Recommendations
MCD Good Fellow AFB, TX                   Mission Capable: (0) Discrepancies, (0) Findings, (1) Recommendation
MATSG-23, Lemmoore, CA                      Mission Capable: (1) Discrepancy, (0) Findings, (3) Recommendations
MCSB, Ft Meade, MD                        Mission Capable: (2) Discrepancies, (0) Findings, (3) Recommendations
HqSvcBn, Quantico, VA                     Mission Capable: (6) Discrepancies, (1) Finding, (1) Recommendation
MARCORSYSCOM, Quantico, VA                Mission Capable: (2) Discrepancies, (1) Finding, (1) Recommendation
TBS, Quantico, VA                         Mission Capable: (3) Discrepancies, (0) Findings, (1) Recommendation
WTBN, Quantico, VA                        Mission Capable: (4) Discrepancies, (0) Findings, (2) Recommendations
SctyBn, Quantico, VA                      Mission Capable: (3) Discrepancies, (1) Finding, (1) Recommendation
VMFA-332, Bft, SC                         Non-Mission Capable: (9) Discrepancies, (3) Findings, (0) Recommendations


                                                                                                                  Encl (1)


VMFA-224, Bft, SC                            Mission Capable: (4) Discrepancies, (2) Findings, (1) Recommendation
VMFA-25:[, Bft, SC                           Mission Capable: (7) Discrepancies, (0) Findings, (2) Recommendations
VMFA-312,Bft,SC                              Mission Capable: (1) Discrepancy, (0) Findings, (1) Recommendation




                                                                   79
MALS-14,Bft,SC                         Non-Mission Capable: (6) Discrepancies, (3) Findings, (0) Recommendations
VMTJ-2, Cherry Pt, NC                  Non-Mission Capable: (6) Discrepancies, (2) Findings, (1) Recommendation
VMAQ-4, Cherry Pt, NC                  Non-Mission Capable: (2) Discrepancies, (3) Findings, (1) Recommendations
VMGR-252, Cherry Pt, NC                Mission Capable: (2) Discrepancies, (1) Finding, (0) Recommendations
HMLA-269, New River, NC                Mission Capable: (6) Discrepancies, (1) Finding, (2) Recommendations
MALS-29, New River, NC                 Mission Capable: (1) Discrepancy. (0) Finding, (1) Recommendations-
                                                                                            OUTSTANDING
HMM-162, New River, NC                 Mission Capable: (7) Discrepancies, (I) Finding, (2) Recommendations
MWSS-272, New River, NC                Mission Capable: (2) Discrepancies, 0) Findings, (1) Recommendation
HqBn, 2d MARDIV, CamLej, NC            Mission Capable: (4) Discrepancies, (1) Finding, (4) Recommendations
TankBn, CamLej, NC                     Mission Capable: (4) Discrepancies, (0) Findings, (0) Recommendations
2d LAR Bri, CarnLej, NC                Mission Capable: (8) Discrepancies, (1) Finding, (4) Recommendations
1Bn, 10th Mar, CaniLej,NC              Mission Capable: (8) Discrepancies, (1) Finding, (1) Recommendation
CEB, CamLej, NC                        Mission Capable: (4) Discrepancies, (0) Findings, (2) Recommendations
H & S Bn, 2d FSSG, CamLej, NC          Mission Capable: (6) Discrepancies, (0) Findings, (5) Recommendations
2d IvlP Bn, CamLej, NC                 Mission Capable: (7) Discrepancies, (0) Findings, (2) Recommendations
2d Supply Bn, CamLej, NC               Non-Mission Capable: (13) Discrepancies, (2) Findings, (1) Recommendation
2d TSB, CamLej, NC                     Mission Capable: (2) Discrepancies, (0) Findings, (4) Recommendations
EWTGPAC NAB Coronado, CA               Mission Capable: (1) Discrepancy, (0) Findings, (3) Recommendations
MCD FT Knox, KY                        Mission Capable: (2) Discrepancies, (0) Findings, (1) Recommendation
MCD Athens, GA                         Mission Capable: (1) Discrepancy, (0) Findings, (1) Recommendation
MATSG 33 NAS Ocean a, VA               Mission Capable: (3) Discrepancies, (0) Findings, (0) Recommendations
MCD Newport, RI                        Mission Capable: (4) Discrepancies, (0) Findings, (0) Recommendations
MAD Patuxent River, MD                 Mission Capable: (3) Discrepancies, (0) Findings, (2) Recommendations
Mar Cryptologic Spt Bn, Ft Meade, MD   Mission Capable: (2) Discrepancies, (0) Findings, (3) Recommendations
MCD Goodfellow AFB, TX                 Mission Capable: (0) Discrepancy, (0) Findings, (0) Recommendations
MATSG 23, NAS Lemore, CA                Mission, Capable:• (1) Discrepancy, (0) Findings, (0) Recommendations
HMX-1, MCAF, Quantico, VA              Mission Capable: (3) Discrepancy, (0) Findings, (0) Recommendations
MARCENT, Tampa, FL                     Mission Capable: (1) Discrepancy, (12) Findings, (1) Recommendations
MAD, China Lake, CA                    Mission Capable: (5) Discrepancy, (0) Findings, (0) Recommendations
MATSS One, NAS, Meridian, MS           Mission Capable: (5) Discrepancy, (0) Findings, (3) Recommendation
MCD, Lackland, AFB, TX                 Non-Mission Capable: (6) Discrepancies, (6) Findings, (6) Recommendations
MARFORSOTJTH, Miami, FL                Not Graded




As of 31 December 2004
8:46:56 AM AIRS DETAILED INSPECTION CHECKLIST 2/15/2005
FA SC STMT TEXT

210 ABSENTEE VOTING PROGRAM
Functional Area Manager: MRP



                                                            80
Point of Contact: GYSGT KENNETH B. WARFORD (703) 784-9511
Date Last Revised: 13 January 2005

210 01 MAJOR COMMAND VOTING OFFICER (M C V 0)

210 01 001 Has a civilian employee at the GS 12 level or above or a field grade officer been assigned to
serve as the Major Command Voting Officer (MCVO)?
Reference
MCD 1742.1 A, PAR 4B(2)

210 01 002 Did The Major Command Voting Officer submit a copy of his/her appointment letter to the
Commandant of the Marine Corps (MRP)?
Reference
MCD 1742.IA. PAR 5D(1)

210 01 003 Does the Major Command Voting Officer maintain the appointment letters for
the Installation Voting Assistance Officers?
Reference -

MCD 1742.1A, ENCLOSURE 2, PAR 3

210 01 004 Has the Major Command Voting Officer received the required training?
Reference
MCO 1742.1A. ENCLOSURE 1, PAR (12)

210 01 005 Does the Major Command Voting Officer maintain the current version of the absentee voter
registration program order (MCO 1742.1 A)?
Reference
MCD 1742.1A

210 01 006 Does the Major Command Voting Officer maintain a voting continuity folder
(turnover folder)?
Reference
MCO 1742.1A. ENCLOSURE 1, PAR (21) VIN FOR JULY2002


8:46:56 AM AIRS DETAILED INSPECTION CHECKUST 2/15/2005
FA SC STMT TEXT

210 01 007 Does the Major Command Voting Officer compile the Installation Voting Assistance Officers
voting assistance reports and submit one report to CMC (MRP) no later thon 15 January of each year?


ENCLOSURE (2)
Reference
MCO 1742.1A, ENCLOSURE 6
MCO 17z12.JA, ENCLOSURE 1, PAR (27)

210 02 INSTALLATION VOTING ASSISTANCE OFFICER (I VA 0)

210 02 001 Has a civilian employee at the GS 12 level or above or a field grade officer been assigned to
serve as the Installation Voting Assistance Officer (IVAO)?
Reference




                                                   81
MCD 1 7421A. PAR 4B(3)

210 02 002 Did the Installation Voting Assistance Officer submit a copy of his/her appointment letter to
their Major Command Voting Officer (MCVO)?
Reference
MCD 1742.IA. PAR 5E(1)

210 02 003 Does the Installation Voting Assistance Officer maintain the appointment
Letters for the Unit Voting Assistance Officers’?
Reference
MCD 1742.1A, ENCLOSURE 2, PAR 3

210 02 004 Has the Installation Voting Assistance Officer received the required training?
Reference
MCO 1742,1 A, ENCLOSURE 1, PAR (12)

210 02 005 Does the Installation Voting Assistance Officer maintain the current version of
the absentee voter registration program order (MCO 1742.1 A)?
Reference
MC01742.1A

210 02 006 Does the Installation Voting Assistance Officer maintain a voting continuity
folder (turnover folder)?
Reference
MCD 1742.1A. ENCLOSURE 1, PAR (21) VIN FOR JULY 2002

210 02 007 Does the Major Command Voting Officer compile the Installation Voting Assistance Officers voting
assistance reports and submit one report to CMC (MRP) no later than 15 January of each year?
Reference
MCD 1742.1A. ENCLOSURE 1, PAR (27)
MOO 1742.1A, ENCLOSURE 6

210 02 008 Has the Installation Voting Assistance Officer designated at least one well-fixed location where voting
materials and voting assistance is available?
Reference

8:46:56 AM AIRS DETAILED INSPECTION CHECKLIST 2/15/2005

FA Sc STMT TEXT

MCO 1742.IA, ENCLOSURE 1. PAR (25)

210 02 009 Does the Installation Voting Assistance Officer compile the Unit Voting Assistance Officers voting
assistance reports and submit one report to the Major Command Voting Officer in a timely manner to allow
adequate time for the MCVO to compile The information and forward to CMC (MRP) no later than 15 January of
each year?
Reference
MCD 1742.1A, ENCLOSURE 1. PAR (27)
MCD 1742.1A, ENCLOSURE 6




                                                        82
210 03 UNIT VOTING ASSISTANCE OFFICER (U V A 0)

210 03 001 Has the command assigned a company grade officer or staff non-Commissioned Officer (02/E-o or
above) as the Unit Voting Assistance Officer (UVAO)?
Reference
MCO 1742.IA. PAR 4B (4)

210 03 002 Did the Unit Voting Assistance Officer submit a copy of his/her appointment letter to the Installation
Voting Assistance Officer?
Reference
MCD 1742.1A. PAR SF

210 03 003 Has the Unit Voting Assistance Officer received the required training?
Reference
MCO 1742.1A, ENCLOSURE 1, PAR (12)

210 03 004 Does the Unit Voting Assistance Officer maintain the current version. of the absentee voter
registration program order (MCD 1742.1 A)?
Reference
MCO 1742.JA

210 03 005 Does the Unit Voting Assistance Officer maintain a voting continuity folder (turnover
folder)?
Reference
MCO 1742.1 A, ENCLOSURE 1, PAR (21) VIN FOR JULY 2002

210 03 006 Has specific written authorization by the unit’s commanding officer been given (for SNCO’s)
to witness and administer oaths required by voting materials, if a
commissioned officer is not available?
Reference
MCD 1742.1A, ENCLOSURE 1, PAR(i)

210 03 007 Does the Unit Voting Assistance Officer maintain the current version of the
voting assistance guide?
Reference
MCD 1742.1A, ENCLOSURE 3, PAR(1)

8:46:56 AM AIRS DETAILED INSPECTION CHECKLIST 2/15/2005
FA SC STMT TEXT

MCD 1742.1A, ENCLOSURE 1, PAR (5)

210 03 008 Does the Unit young Assistance Officer ensure each eligible individual is
afforded the opportunity to receive absentee young assistance In regards to
election dates, state requirements, and voting registration and procedures?
Reference
MCD 1742.1A, ENCLOSURE 1, PAR (2) AND PAR (5)

210 03 009 Is the Unit young Assistance Officer aware of the requirement for availability of the federal
post card application (FPCA) to each eligible service member?
Reference
MCD 1742.1A, ENCLOSURE 1, PAR (3)




                                                         83
210 03 010 Does the Unit Voting Assistance Officer maintain an adequate supply of FPCA’s on hand,
(two per billet on the unit Tb)?
Reference
MCO 1742.1A, ENCLOSURE 1. PAR (4)
MOO 1742.1A, ENCLOSURE 3, PAR (2)

210 03 011 Is the Unit Voting Assistance Officer aware of the procedures to be used when prisoners
desire to vote?
Reference
MCO 1 742.1A, ENCLOSURE 4, PAR (2)

210 03 012 Does the Unit Voting Assistance Officer have procedures in place to increase
voting awareness and encourage voter registration?
Reference
MCD 1742.1A. ENCLOSURE], PAR (13- 16) AND PAR (20)

210 03 013 Did the Unit Voting Assistance Officer provide training on absentee
Registration and voting procedures to unit members’?
Reference
MOO 1742.1A, ENCLOSURE 1, PAR(2)

210 03 014 Has the Unit Voting Assistance Officer ensured the command telephone
directory includes the name and telephone number for the UVAO?
Reference
MOO 1742.1A, ENCLOSURE 1. PAR (9)

210 03 015 If deployed or stationed overseas, does the Unit Voting Assistance Officer have a sufficient stock of
federal write-in absentee ballots (FWAB) on hand,
(one per billet on the un[1 T/O)?
Reference
MCO 1742.1 A. ENCLOSURE 1. PAR (19)
MCO 1742.1 A, ENCLOSURE 3, PAR (2)

210 03 016 Is the Unit Voting Assistance Officer familiar with the websites available (HQMC:
www.manpower.usmc.mil {personal & readiness} and FVAP: www.fvap.ncr.gov) for eligible individuals to
communicate with their elected officials?
Reference
MOO 1742.1 A. ENCLOSURE 3, PAR (4 & 5)

210 03 017 Does the Unit Voting Assistance Officer receive. Maintain, and display copies
of the voting information newsletter (V1N)?
Reference
MCO 1742.1A, ENCLOSURE 3, PAR (4)

210 03 018 Does the Unit Voting Assistance Officer maintain and display voting posters and calendars?
Reference
MCO 1742.1A, ENCLOSURE 1, PAR (15)
MCO 1742.1A, ENCLOSURE 3, PAR (3)




                                                        84
210 03 019 Does the Unit Voting Assistance Officer receive and maintain voting messages? Reference
MCO 1742.JA. PAR 5D (2) AND 5E (2)

210 03 020 Does the Unit Voting Assistance Officer ensure That the FPCA is completed upon a service member’s
reenlistment, extension, or completion of permanent change of station, or as soon thereafter as practicable?
Reference
MCO 1742.1 A. ENCLOSURE 1. PAR (3)

210 03 021 is the Unit Voting Assistance Officer aware of the maximum number of eligible voters a UVAO con
represent (200) before assigning additional voting assistance officers? Reference
MOO 1742.1A, ENCLOSURE 1, PAR (24)

210 03 022 Does the Unit Voting Assistance Officer complete a Voting Assistance Report and
submit the report to the Installation Voting Assistance Officer, annually?
Reference
MOO 1742.1A, ENCLOSURE 6
MCO 1742.1A, ENCLOSURE 1. PAR (27)




                                                      85
This page left intentionally blank




           86
Appendix L. Acronym List

Acronyms
FPCA        Federal Post Card Application
FVAP        Federal Voting Assistance Program
FWAB        Federal Write-In Absentee Ballot
IVAO        Installation Voting Assistance Officer
DoD OIG     Department of Defense Office of Inspector General
USD (P&R)   Under Secretary of Defense for Personnel and Readiness
UVAO        Unit Voting Assistance Officer
VAO         Voting Assistance Officer




                                   87
This page left intentionally blank




           88
Appendix M. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness*
  Director, Federal Voting Assistance Program*
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Secretary of the Army
Chief of Staff, U.S. Army*
Inspector General, Department of the Army*

Department of the Navy
Secretary of the Navy
Chief of Naval Operations*
Commandant, U.S. Marine Corp*
Naval Inspector General*
  Deputy Naval Inspector General for Marine Corps Matters*

Department of the Air Force
Secretary of the Air Force
Chief of Staff, U.S. Air Force*
Inspector General of the Air Force*

Combatant Command
Inspector General, Joint Staff

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Armed Services
House Committee on Government Reform

                                        *Recipient of draft report




                                              89
This page left intentionally blank




           90
Appendix N. Management Comments




                     91
92
93
94
Note: Referenced Enclosure not included due to size

                             95
96
97
98
99
This page left intentionally blank




                iv
